<html>
<title> - THE TRANSPORTATION SECURITY ADMINISTRATION'S FISCAL YEAR 2017 BUDGET REQUEST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 THE TRANSPORTATION SECURITY ADMINISTRATION'S FISCAL YEAR 2017 BUDGET 
                                REQUEST

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2016

                               __________

                           Serial No. 114-58

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
22-622 PDF                      WASHINGTON : 2016


________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  





                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 
                              ---------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8

                                Witness

Mr. Peter V. Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11

                             For the Record

The Honorable Earl L. ``Buddy'' Carter, a Representative in 
  Congress From the State of Georgia:
  Letter.........................................................    26

                                Appendix

Questions From the Chairman John Katko for Peter V. Neffenger....    35

 
 THE TRANSPORTATION SECURITY ADMINISTRATION'S FISCAL YEAR 2017 BUDGET 
                                REQUEST

                              ----------                              


                        Wednesday, March 2, 2016

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, Carter, Rice, Keating, and 
Thompson (ex officio).
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation Security, will come to order. The 
subcommittee is meeting today to determine and examine the 
fiscal year 2017 budget of the Transportation Security 
Administration. I now recognize myself for an opening 
statement.
    Terrorists remain committed to attacking the West, and 
every day these groups are recruiting new soldiers to their 
cause. As 
9/11 fades from the memory of many Americans, it is incumbent 
upon Congress to look at tragic recent events and recognize 
just how committed our adversaries remain to attacking us. The 
harsh reality is that there are formidable new threats to the 
safety and security of the traveling public, and it is 
incumbent upon this committee to ensure that the Transportation 
Security Administration has the resources it needs to protect 
the American people against those threats and that it spends 
those resources in an appropriate manner.
    At the very beginning of my tenure at Chairman last year, 
we witnessed a marked increase in the public visibility of 
access control and employee vetting gaps at airports across the 
country with the revelation that aviation workers were involved 
in weapons and drug smuggling, and abusing their access to 
secure and sterile areas of airports.
    Then, in June, we learned of disturbing covert testing 
results from the Department of Homeland Security's inspector 
general on the effectiveness of passenger screening 
checkpoints. Further, we saw tragedy with the downing of a 
Metrojet flight over the Sinai Peninsula which by most accounts 
was caused by a bomb likely planted by ISIS.
    Finally, we saw a number of threats against aviation and 
surface transportation systems across the globe due to 
increased threats posed by extremists and foreign fighters and 
the near tragedy aboard a Daallo airlines flight in Somalia.
    Today, we look at how the resources requested in the 
President's budget will mitigate these threats and make TSA a 
stronger, better organization. Amidst a heightened threat 
landscape, today's hearing will examine the recent budget 
request submitted to Congress by the TSA for fiscal year 2017.
    This hearing is a critical element of the subcommittee's 
oversight of the TSA and an important opportunity for Congress 
to provide feedback and input on the direction the agency is 
taking.
    As the subcommittee with primary jurisdiction over TSA, we 
have a front row seat to the challenges and obstacles facing 
the security of our Nation's transportation systems. While I am 
heartened at a number of important steps taken by the recently 
appointed administrator of TSA, Admiral Pete Neffenger, our 
main concern is the sheer size and scope of the challenges 
facing TSA as an organization amidst a proliferating threat 
environment.
    Because of this, I am eager to learn more about TSA's 
proposed budget for the upcoming fiscal year and how the agency 
plans to uses its resources efficiently to better secure our 
transportation sectors.
    The reality is that we must never become complacent in our 
attempt to stay on the cutting edge of threat mitigation. It is 
particularly incumbent upon this committee to remain steadfast 
in its oversight of TSA so that the American people can be 
confident that they can travel safely and securely.
    Moreover, I would like to better understand how TSA will 
continue to enhance its training and intelligence-sharing 
efforts with its own employees, industry stakeholders, and 
foreign partners. I am also interested in learning more about 
developments of TSA's PreCheck program, which is a vital part 
of advancing risk-based security screening at checkpoints.
    TSA has to be right 100 percent of the time and the 
terrorists only have to be right once. With a challenging and 
ambitious mission, this subcommittee stands ready to continue 
helping TSA in their efforts to obtain the necessary resources 
to keep the traveling public safe from a wide array of threats 
to their security.
    However, we also intend to provide critical oversight of 
TSA in an effort to avoid instances of waste, fraud, and abuse 
of taxpayer dollars in the upcoming fiscal year and in years 
ahead.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                             March 2, 2016
    Terrorists remain committed to attacking the West, and every day 
these groups are recruiting new soldiers to their cause. As 9/11 fades 
from the memory of many Americans, it is incumbent upon Congress to 
look at tragic recent events and recognize just how committed our 
adversaries remain to attacking us.
    The harsh reality is that there are formidable new threats to the 
safety and security of the traveling public, and it is incumbent upon 
this committee to ensure that the Transportation Security 
Administration has the resources it needs to protect the American 
people against those threats.
    At the very beginning of my tenure as Chairman last year, we 
witnessed a marked increase in the public visibility of access control 
and employee vetting gaps at airports across the country with the 
revelations that aviation workers were involved in weapons and drug 
smuggling and abusing their access to secure and sterile areas of 
airports.
    Then, in June, we learned of disturbing covert testing results from 
the Department of Homeland Security's Inspector General on the 
effectiveness of passenger screening checkpoints. Further, we saw a 
tragedy with the downing of a Metrojet flight over the Sinai Peninsula, 
which by most accounts was caused by a bomb likely planted by ISIS.
    Finally, we saw a number of threats against aviation and surface 
transportation systems across the globe due to increased threats posed 
by extremists and foreign fighters and a near-tragedy aboard a Daallo 
airlines flight in Somalia.
    Today, we will look at how the resources requested in the 
President's budget will mitigate these threats.
    Amidst a heightened threat landscape, today's hearing will examine 
the recent budget request submitted to Congress by the Transportation 
Security Administration for fiscal year 2017. This hearing is a 
critical element of the subcommittee's oversight of the TSA and an 
important opportunity for Congress to provide feedback and input on the 
direction the agency is taking.
    As the subcommittee with primary jurisdiction over TSA, we have a 
front-row seat to the challenges and obstacles facing the security of 
our Nation's transportation systems.
    While I am heartened at a number of important steps taken by the 
recently-appointed administrator of TSA, Admiral Pete Neffenger, I 
remain concerned at the sheer size and scope of the challenges facing 
TSA as an organization amidst a proliferating threat environment.
    Because of this, I am eager to learn more about TSA's proposed 
budget for the upcoming fiscal year and how the agency plans to use its 
resources efficiently to better secure our transportation sectors.
    The reality is that we must never become complacent in our attempt 
to stay on the cutting edge of threat mitigation, and it is 
particularly incumbent upon this committee to remain steadfast in its 
oversight of TSA so that the American people can be confident that they 
can travel safely and securely.
    Moreover, I would like to better understand how TSA will continue 
to enhance its training and intelligence-sharing efforts with its own 
employees, industry stakeholders, and foreign partners. I am also 
interested in learning more about developments in TSA's PreCheck 
program, which is a vital part of advancing risk-based security 
screening at checkpoints.
    TSA has to be right 100% of the time and the terrorists only have 
to be right once. With a challenging and ambitious mission, this 
subcommittee stands ready to continue helping TSA in their efforts to 
obtain the necessary resources to keep the traveling public safe from a 
wide array of threats to their security.
    However, we also intend to provide critical oversight of TSA in an 
effort to avoid instances of waste, fraud, and abuse of taxpayer 
dollars in the upcoming fiscal year and in years ahead. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Katko. With that, I now recognize the Ranking Member of 
the subcommittee, the gentlewoman from New York, Miss Rice, for 
any statement she may have.
    Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    I would like to thank Chairman Katko for convening this 
hearing and I want to thank Administrator Neffenger for coming 
to talk with us about the Transportation Security 
Administration's budget request for fiscal year 2017.
    All of us here today recognize the importance of TSA's 
mission, and it is imperative that we make sure that TSA has 
the resources they need to fulfill that mission and that those 
resources are deployed as effectively as possible.
    I have reviewed TSA's budget request and found aspects I 
agree with and a couple of aspects that I think warrant further 
examination.
    First, I am pleased to see that the TSO basic training will 
continue at the TSA Academy at the Federal Law Enforcement 
Training Center's headquarters in Glynco, Georgia. FLETC 
conducts law enforcement training for more than 90 Federal 
agencies and thousands of State and local law enforcement 
agencies, and I think it is important for TSOs to know that 
they are being trained by the best at the same facility as 
officers and agents who are directly responsible for 
maintaining United States National security. I think it 
reinforces for new TSOs that the job they are training for is 
equally important to our National security, it is a job that 
our Government and the American people value, that we rely on, 
and that we are willing to invest in.
    Last year this subcommittee held a hearing to assess the 
current state of the Federal Air Marshal Service. We learned 
during that hearing that FAMS has not had an incoming class 
since 2011 and their attrition rate has increased. That was 
troubling to many of us, so I am glad to see that some of those 
concerns have been resolved and there will be a new FAMS class 
this year.
    Of course, we know that in addition to aviation security, 
TSA is also responsible for protecting several modes of surface 
transportation. The United States now sees more than 10 billion 
passenger trips on mass transit systems each year and nearly 
800,000 shipments of hazardous materials every day. We have 
seen evidence in recent years that ridership on mass transit 
systems continues to grow even as gas prices decline.
    So I was struck by the fact that this budget request seeks 
only a $12 million increase in funding for surface 
transportation. I think the attempted attack on a high-speed 
train in France last summer served as a reminder to all of us 
that securing our surface transportation system is just as 
important as securing our aviation system. The threats are 
constantly evolving and equally deserving of our full 
attention.
    Following that attempted attack, we held a hearing to 
evaluate how we are safeguarding our surface transportation 
systems against evolving terrorist threats, and it was during 
that hearing that one witness testified that the greatest 
threat to surface transportation systems is the fact that they 
are, ``wide open,'' that they are more susceptible to attacks 
and thus, one would think, more attractive as a target for 
terrorists.
    Another witness stated that reduced grant funding would 
have a drastic effect on the many transportation systems that 
rely on these additional funding sources, and yet TSA has not 
found the need to seek significant funding increases for 
surface transportation security in this budget request. I know 
that you will do your best to answer those questions, 
Administrator Neffenger, and I look forward to hearing that.
    I would also like to talk to you about why TSA continues to 
request funding or has not cut funding for their Behavior 
Detection Program, which at the time of the 2013 GAO report had 
cost $900 million since 2007 and yet has not, to my 
understanding, been proven totally effective.
    I address these concerns, I would like you to address these 
concerns, given the fact that we are approaching a summer 
season that we expect to be one of the busiest we have ever 
seen with some of the longest checkpoint waiting times we have 
ever seen. So I think that raises a serious question: Why would 
TSA want to use their resources and manpower on a program that 
has not yet proven effective?
    Also, last week the subcommittee held a roundtable with 
security manufacturer stakeholders to discuss the budget 
request, and one thing that emerged from our discussion was 
that there seem to be discrepancies between TSA's Strategic 
Five-Year Technology Investment Plan and the fiscal year 2017 
budget request. That is another thing I am sure that you are 
going to address as well, Administrator Neffenger.
    Thank you again for coming.
    Mr. Chairman, thank you for convening this hearing, and I 
look forward to a productive dialogue today. I yield back the 
balance of my time.
    [The statement of Ranking Member Rice follows:]
               Statement of Ranking Member Kathleen Rice
                             March 2, 2016
    All of us here today recognize the importance of TSA's mission, and 
it's imperative that we make sure TSA has the resources they need to 
fulfill that mission and that those resources are deployed as 
effectively as possible. That said, I've reviewed TSA's budget request, 
and found aspects I agree with and certain aspects that I think warrant 
further examination.
    First, I'm pleased to see that the TSO Basic Training will continue 
at the TSA Academy at the Federal Law Enforcement Training Centers 
(FLETC) headquarters in Glynco, Georgia. FLETC conducts law enforcement 
training for more than 90 Federal agencies and thousands of State and 
location law enforcement agencies. And I think it's important for TSOs 
to know that they are being trained by the best, at the same facility 
as officers and agents who are directly responsible for maintaining 
United States National security. I think it reinforces for new TSOs 
that the job they're training for is equally important to our National 
security--it's a job that our Government and the American people value, 
that we rely on, and that we're willing to invest in.
    Last year, this subcommittee held a hearing to assess the current 
state of the Federal Air Marshall Service (FAMS). We learned during 
that hearing that FAMS has not had an incoming class since 2011, and 
their attrition rate has increased. That was troubling to many of us, 
so I'm glad to see that some of those concerns have been resolved, and 
there will be a new FAMS class this year.
    Of course, we know that in addition to aviation security, TSA is 
also responsible for protecting several modes of surface 
transportation. The United States now sees more than 10 billion 
passenger trips on mass transit systems each year, and nearly 800,000 
shipments of hazardous materials every day. And we've seen evidence in 
recent years that ridership on mass transit system continues to grow 
even as gas prices decline. So I was struck by the fact that this 
budget requests seeks only a $12 million increase in funding for 
surface transportation.
    I think the attempted attack on a high-speed train in France last 
summer served as a reminder to all of us that securing our surface 
transportation systems is just as important as securing our aviation 
systems. The threats are constantly evolving, and equally deserving of 
our full attention. Following that attempted attack, we held a hearing 
to evaluate how we are safeguarding our surface transportation systems 
against evolving terrorist threats.
    During that hearing, one witness testified that the greatest threat 
to surface transportation systems is the fact that they are ``wide 
open''--that they are more susceptible to attacks, and thus, one would 
think, more attractive as a target for terrorists. Another witness 
stated that reduced grant funding would have a drastic effect on the 
many transportation systems that rely on these additional funding 
sources--and yet TSA has not found the need to seek significant funding 
increases for surface transportation security in this budget request. 
So I would ask Administrator Neffenger to address those concerns.
    I would also like to understand why TSA continues to request 
funding--or has not cut funding--for their behavior detection program, 
which at the time of the 2013 report had cost $900 million since 2007. 
It has yet to be proven effective. In addition to my concerns over the 
cost and effectiveness of this program, we're approaching a summer 
season that we expect to be one of the busiest we've ever seen, with 
some of the longest checkpoint waiting times we've ever seen. So I 
think that raises a serious question: Why would TSA want to use their 
resources and manpower on a program that has not proven to be 
effective, instead of expanding their screening capacity?
    Finally, last week the subcommittee held a roundtable with security 
manufacturer stakeholders to discuss the budget request. One thing that 
emerged from our discussion was that there seem to be discrepancies 
between TSA's Strategic 5-Year Technology Investment Plan and the 
fiscal year 2017 budget request. I look forward to the administrator's 
explanation of these discrepancies.

    Mr. Katko. Thank you, Miss Rice.
    The Chair now recognizes the Ranking Member of the Homeland 
Security Committee as a whole, the gentleman from Mississippi, 
Mr. Thompson, for any statement he may have.
    Mr. Thompson. Thank you, Mr. Chairman, for convening this 
hearing.
    I would also like to welcome Administrator Neffenger for 
appearing before the subcommittee today.
    Mr. Administrator, your leadership and vision at TSA is 
greatly appreciated. You and I share the goal of moving TSA in 
a better direction. In your budget request there are areas that 
are encouraging and show that resources, which seem to shrink 
year by year, are being allocated to programs and areas where 
they most needed.
    On the other hand, there are areas that are cause for 
concern. One such area involves the Transportation Security 
Acquisition Reform Act and your plan for technology acquisition 
in general. The act, of which I was an original cosponsor, was 
signed into law in December 2014. It requires TSA to develop 
and inform biennially a Five-Year Technology Investment Plan 
that includes justification for acquisitions, as well as 
performance baseline issues.
    The Strategic Plan, which was introduced in August 2015, 
was lauded by security technology manufacturers as it provided 
a roadmap for technology priorities of TSA. These stakeholders 
could then allocate their research and development resources 
toward projects that align with the mission and intentions of 
TSA.
    This is especially important to small businesses who 
attempt to compete in this space, who do not have the capital 
to develop technologies that they believe meet existing needs 
at TSA, only to have the agency in midstream go in another 
direction. As a small business, you can understand what that 
would do for the majority of it.
    We were shocked to learn, however, from stakeholders that 
the budget request did not align with the acquisition schedule 
contained within the Five-Year Plan. For instance, within the 
Five-Year Strategic Technology Plan TSA indicates its intention 
to acquire 897 enhanced metal detectors for checkpoint 
screening and no intent to purchase boarding pass scanners or 
credential authentication technology systems.
    In the budget request, however, there is no intent to 
procure the enhanced metal detectors, and that fund will be 
used to purchase 625 credential authentication technology 
systems and 175 boarding pass scanners.
    Another area of great concern is the staffing levels at our 
Nation's airports, and I think you are aware that a number of 
airports have already sounded the alarm that come this summer, 
unless the modeling is changed, we can expect significant wait 
times at airports. I am sure you have seen the letter from the 
Atlanta airport director which I think is kind of where I am 
coming from.
    I want to see how you plan to address that, that is a real 
problem, because he has some options, and I would prefer those 
options not be utilized and we can maintain a Federal workforce 
in its present form.
    The Federal Air Marshal system, I am glad that we have a 
new class underway. With our Ranking Member here, I want you to 
understand that 5 percent female air marshals is just not 
enough. I think we could enhance the recruitment to do that and 
I look forward to hearing your answer on that.
    Mr. Chair, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 2, 2016
    Administrator Neffenger, your leadership and vision at TSA are 
greatly appreciated. You and I share the goal of moving TSA in a better 
direction. In your budget request, there are areas that are encouraging 
and show that resources, which seem to shrink year-by-year, are being 
allocated to programs and areas where they are most needed.
    On the other hand, there are areas that are cause for concern. One 
such area involves the Transportation Security Acquisition Reform Act, 
and your plan for technology acquisition in general. The Act, of which 
I was an original cosponsor, was signed into law in December 2014. It 
requires TSA to develop and inform biennially a 5-year technology 
investment plan that includes justification for acquisitions, as well 
as performance baseline requirements.
    The strategic plan, which was introduced in August 2015, was lauded 
by security technology manufacturers, as it provided a road map for the 
technology priorities of TSA. These stakeholders could then allocate 
their research and development resources towards projects that aligned 
with the mission and intentions of TSA.
    This is especially important to small businesses who attempt to 
compete in this space, who do not have the capital to develop 
technologies that they believe meet an existing need to TSA, only to 
have the agency go in another direction.
    We were shocked to learn from stakeholders that the budget request 
did not align with the acquisition schedule contained within the 5-year 
plan. For instance, within the Strategic Five-Year Technology Plan, TSA 
indicates its intention to acquire 897 enhanced metal detectors for 
checkpoint screening, and no intent to purchase boarding pass scanners 
or credential authentication technology systems.
    In the budget request, however, there is no intent to procure the 
enhanced metal detectors, and that funds will be used to purchase 625 
credential authentication technology systems, and 175 boarding pass 
scanners.
    Another area of great concern is the staffing levels at our 
Nation's airports. The Federal Aviation Administration is projecting 
passenger growth at a rate of 2 percent per year, and this summer is 
expected to be one of the busiest in recent years. We hear time and 
again from large airports that have infrastructures capable of housing 
many security lanes within their checkpoint areas, but due to staffing 
shortages, they use only a fraction of the lanes.
    Recent changes in the standing operating procedures resulting from 
covert testing have forced TSOs to take steps to ensure that they are 
performing their jobs as thoroughly as possible. We thank them for 
being on the front lines in the aviation security effort.
    Given the forecast of increased passenger volume, along with 
underutilized checkpoints, I am concerned that congested screening 
queues will create additional vulnerabilities.
    I look forward to hearing from you today on ways the screening 
allocation model can achieve greater efficiencies, or other ways in 
which we might address the issue.
    This budget request also contains funds to recruit and train the 
first Federal Air Marshal Service class since 2011. I also look forward 
to hearing about how you are working to address diversity issues within 
the coming FAMS recruitment class and the instances of misconduct that 
have plagued the agency.

    Mr. Katko. Thank you, Mr. Thompson. I appreciate your 
interest in the committee and in the oversight of TSA.
    All right. Members of the committee are reminded that 
opening statements may be submitted for the record.
    We are pleased to have us with us once again the 
distinguished witness, Admiral Neffenger, on this important 
topic. He currently serves as the sixth Administrator of the 
TSA, where he leads security operations at more than 450 
airports within the United States and a workforce of over 
50,000 employees.
    Prior to joining TSA, Admiral--Administrator Neffenger and 
Admiral Neffenger, as I like to call him, served as the 29th 
vice commandant of the U.S. Coast Guard and the Coast Guard's 
deputy commandant for operations.
    The Chair now recognizes Admiral Neffenger to testify.

STATEMENT OF PETER V. NEFFENGER, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Neffenger. Good morning, Chairman Katko, Ranking Member 
Rice, Ranking Member Thompson, and distinguished Members of the 
subcommittee. Thank you for the opportunity to testify today on 
behalf of the President's fiscal year 2017 budget, which 
includes $7.6 billion for TSA. Thank you also for the support 
that this committee has provided certainly during the 8 months 
of my tenure.
    This budget provides funding to sustain and strengthen the 
critical mission of TSA: Protecting the Nation's transportation 
system and ensuring the freedom of movement of people and 
commerce. Transportation underpins the entire economic health 
of this country. We depend upon it, and protecting it is one of 
the most important services our Government provides the 
American people.
    It is now 8 months since I joined TSA on July 4 of last 
year, and of the many positive impressions, the most profound 
is the one I have gleaned from our workforce. TSA's nearly 
60,000 security professionals are dedicated to a demanding and 
challenging mission, and they are our most important resource. 
They are incredibly patriotic and passionate about our 
counterterrorism mission, and they will deliver excellence if 
properly trained, equipped, and led.
    This budget is a modest increase over last year and will 
enable TSA to more fully renew its focus on security 
effectiveness. It annualizes the investments made in our front-
line workforce, our screening technology, and the new TSA 
Academy, and sets the foundation for the transformation of TSA 
into the professional counterterrorism and security agency the 
American people deserve.
    I would like to thank this subcommittee for its commitment 
to our mission and for holding front-line staffing levels 
steady in the face of dramatic increases in passenger volume 
and a dynamic threat environment. This budget also enables us 
to hire air marshals consistent with a risk-based concept of 
operations, modestly increases our intelligence capability, and 
invests further in the TSA Academy.
    We have made great strides in addressing the challenges 
faced last summer. To ensure we do not repeat past mistakes, 
determining root causes of the problems identified has been my 
utmost concern. Delivered in a Classified report to Congress 
and this committee in January, we concluded that strong drivers 
of the problem included a disproportionate focus on efficiency, 
environmental influences that create stress in the checkpoint 
operations and gaps in system designs and processes.
    I am proud to report that we have refocused on our primary 
mission. We are restrained our entire workforce, corrected 
procedures, improved our technology, and analyzed systemic 
issues. We are emphasizing the values of discipline, 
competence, and professionalism in resolving every alarm, and I 
am confident that we have corrected the immediate problems, and 
I am also confident that TSA is able to deter, detect, and 
disrupt threats to our aviation system.
    TSA will continue to partner with the airlines, with 
airport operators, and the trade and travel industry to 
identify solutions that can reduce stress on the checkpoint. We 
must continue to rightsize and resource TSA appropriately to 
ensure that we continue to be responsive to the public we 
serve.
    Moving forward, we are guided by a principled approach that 
is central to successful enterprise leadership. We are 
intensely focusing on the central unifying purpose of TSA, 
which is to deliver transportation security. We are aligning 
our strategic guidance, our operational plans, our measures of 
effectiveness, system design, and performance evaluations to 
this core purpose.
    The unity of effort that I expect is memorialized in my 
Administrator's Intent, which I published in January. I have 
provided copies to this committee. Mission success is built on 
a shared understanding of objective, unity of purpose, and 
alignment of values and principles. My Intent articulates those 
objectives, the approach we will pursue in accomplishing our 
counterterrorism mission, and the values and principles that 
define TSA. Simply stated, we will focuses on mission, invest 
in people, and commit to excellence.
    Our self-examination also gave us insight into imperatives 
for change and how we must evolve. We must adapt faster than 
the enemy, we must invest at the pace of the threat, build 
resiliency into operations, and do so in a rapidly-growing 
sector of the American economy.
    We are undertaking a series of foundational efforts, 
including a comprehensive assessment of our acquisition system, 
building a planning, programming, budgeting, and execution 
system, developing an enterprise-wide human capital management 
strategy, reviewing our staffing model to ensure operational 
focus and agility, and fielding an agency-wide training 
strategy which includes new officer training, continuing 
professional education, and leadership training and 
development.
    We are rethinking how we invest in technology, and we are 
partnering with several airlines and airports to develop and 
install in the near future a dramatically improved passenger 
screening environment in a couple of key airports.
    Of utmost importance, TSA must remain committed to the 
values that public service demands, and I have challenged our 
leaders at every level to commit themselves to selfless and 
ethical service. As I discover questionable policies or 
unjustifiable practices, I will fix them. I demand an agency 
that is values-based and infused from character top to bottom. 
This is my solemn duty, and it is what the American people 
expect of their Government and those in whom they entrust their 
security.
    Many profound and important tasks lay ahead for TSA, but I 
believe we are on a sound trajectory, and I am optimistic about 
our future. As I have relayed in my Intent, we will focus on 
mission, invest in our dedicated workforce, and commit to 
excellence in all that we do.
    I thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of Mr. Neffenger follows:]
                Prepared Statement of Peter V. Neffenger
                             March 2, 2016
                              introduction
    Good morning Chairman Katko, Ranking Member Rice, and distinguished 
Members of the committee. Thank you for the opportunity to testify 
today on behalf of the President's fiscal year 2017 budget, which 
includes $7.6 billion for the Transportation Security Administration 
(TSA).
    The fiscal year 2017 budget provides funding to sustain and 
strengthen the critical mission of TSA--protecting the Nation's 
transportation system and ensuring the freedom of movement of people 
and commerce. Transportation, as you know, underpins the entire 
economic health of this country. We all depend on it, and protecting it 
is one of the most important services our Government provides the 
American People.
    Created 2 months after 9/11, TSA, and the underlying rationale for 
its existence remain as compelling today as in 2001. We are challenged 
by a complex and dynamic threat environment, one in which the global 
terrorist threat has evolved from a world of terrorist-directed attacks 
to a world that includes the threat of terrorist-inspired attacks.
    In addition to expanding threats with a number of groups with whom 
to contend, these groups have mastered social media to recruit members, 
and inspire action against vulnerable and high-profile objectives. 
Aviation remains a prime target for terrorist groups, as demonstrated 
with the destruction of Metrojet Flight 9268 above the northern Sinai 
on October 31, 2015, and most recently on February 2, 2016 during an 
attack on Daallo Airlines, where explosives detonated during its ascent 
from Adde International Airport in Mogadishu.
                         a national imperative
    The security and economic prosperity of the United States depends 
significantly on the effective and efficient operation of its 
transportation system. We know terrorists, criminals, and hostile 
nation-states have long viewed transportation sectors, particularly 
aviation, as a leading target for attack or exploitation. Thus, our 
mission remains a National imperative.
    Our officers, inspectors, air marshals, canine handlers, and other 
security professionals here in the United States and around the globe 
are committed to our mission, and they are our most important resource. 
While operating in the present, we also must envision the future, 
seeking new ways to enhance our effectiveness across a diverse 
transportation enterprise, challenged by a persistent threat.
                the fiscal year 2017 president's budget
    The fiscal year 2017 budget of $7.6 billion will allow TSA the 
opportunity to more fully address the additional requirements 
identified last year in response to findings from covert testing of 
screening processes and procedures by the Department of Homeland 
Security's (DHS) Office of the Inspector General (OIG). Specifically:
  <bullet> $3.0 billion to support 42,848 FTE Transportation Security 
        Officers (TSOs), an increase of $72.1 million and 323 FTE over 
        fiscal year 2016, to ensure effective screening operations 
        while minimizing wait times. This funding will help to ensure 
        that TSA maintains an appropriate staffing level at our 
        checkpoints.
  <bullet> $200 million for transportation screening technology, 
        enabling TSA to continue improving the capabilities of its 
        checkpoint screening equipment throughout nearly 430 airports. 
        This amount continues the additional $15 million provided in 
        fiscal year 2016, and adds another $5 million for new 
        capabilities to enhance the checkpoint X-ray units, thus 
        increasing the TSOs' ability to find prohibited items in carry-
        on bags.
  <bullet> $116.6 million to provide training for TSA front-line 
        employees, including new basic training initiated in January 
        2016 at the TSA Academy located at the Federal Law Enforcement 
        Training Center in Glynco, Georgia. To date, 541 new hires have 
        graduated from this program, and TSA will train another 4,835 
        front-line employees this year. In fiscal year 2017 TSA will 
        complete construction of modular facilities to house this 
        effort, expanding capacity to 7,300 TSOs annually.
  <bullet> $83.5 million for TSA's intelligence operations, an increase 
        of $2.0 million to continue the expansion of intelligence 
        officers in front-line facilities to improve information 
        sharing.
  <bullet> $10 million to replace IT infrastructure, including network 
        components and outdated operating systems, that has not only 
        reached its end-of-life, but more critically has become 
        vulnerable to cybersecurity threats.
    The fiscal year 2017 budget continues and builds on the investments 
made in fiscal year 2016. As you understand from your review of last 
year's budget, fiscal year 2016 was an austere budget year for the 
agency and on behalf of TSA I would like to thank this committee for 
its commitment to the DHS transportation security mission.
                    addressing immediate challenges
    When I took office on July 4, 2015, the disturbing results of 
covert testing of passenger screening operations conducted by the OIG 
required immediate attention. Upon learning of these results, Secretary 
Johnson directed TSA to implement a series of steps constituting a 10-
point plan to address the issues raised by the covert testing. These 
included steps to ensure leadership accountability, improve alarm 
resolution, increase effectiveness and deterrence, increase threat 
testing to sharpen officer performance, strengthen operating procedures 
and technology, and enhance training.
    All of the actions directed in the Secretary's 10-point plan are 
currently under way or have been completed.
    As Secretary Johnson has stated, we must continually and 
comprehensively evaluate and re-evaluate what is best for aviation 
security. To ensure that we do not repeat past failures, determining 
root causes of the problems has been our utmost concern. We have 
concluded that strong drivers of the problem included leadership's 
focus on efficiency, environmental influences that created stress in 
checkpoint operations, and gaps in system design and processes. A 
disproportionate focus on efficiency and speed in screening operations 
rather than security effectiveness powerfully influenced organizational 
culture and officer performance. As a result, there was significant 
pressure to clear passengers quickly at the risk of not resolving 
alarms properly. Our analysis also revealed that our screeners did not 
fully understand the capabilities and limitations of the equipment they 
were using, and several procedures were inadequate to resolve alarms. 
We have addressed this by continuing the Mission Essentials training 
initiated in fiscal year 2016 so that our TSOs can more effectively use 
their equipment as threats evolve.
    Systematic solutions to these challenges require a number of steps: 
A renewed focus on TSA's security mission; revised procedures; 
investments in technology; realistic and standardized training; a new 
balance between effectiveness and efficiency; and support for our 
front-line officers. We must also continue to partner with airlines, 
airport operators, and the trade and travel industry to reduce the 
stress on checkpoints. Further, we must right-size and appropriately 
resource TSA and halt further reductions in officer staffing.
    We have refocused TSA on its primary mission, re-trained our entire 
workforce, corrected certain processes and procedures, improved our 
technology, and analyzed systemic issues. I am confident that we have 
corrected the immediate problems revealed by the covert testing. I am 
also confident that TSA is able to deter, detect, and disrupt threats 
against our aviation system.
    We have renewed our focus on the fundamentals of security by asking 
our officers and leaders to strike a new balance between security 
effectiveness and line efficiency while also diligently performing 
appropriate resolution procedures. Moreover, we have directed our 
managers and supervisors to support our officers in performing their 
difficult mission. Moving forward, we are guided by a principled 
approach, with specific projects already underway to ensure we achieve 
our mission goals.
    We are in the process of ensuring our focus on security 
effectiveness is well-defined and applied across the entire workforce. 
We are aligning TSA around this renewed focus on security 
effectiveness. From late July to early October 2015, we provided new 
and enhanced training for every officer and leader in our screening 
workforce, more than 42,000 in total. We have followed the initial 
effort with a range of initiatives to convey these priorities to 
leaders and officers, including a statement of the Administrator's 
Intent, the National Training Plan, and our workforce messaging.
    Refocusing on threat mitigation and improving TSO awareness and 
knowledge of threats will provide a new and acute mission focus. We are 
emphasizing the value of discipline, competence, and professionalism in 
resolving every alarm. From my field visits, I can report that our 
officers are hearing, understanding, and applying this new approach.
    TSA will continue to partner with the airlines, airport operators, 
and the trade and travel industry to identify solutions that can reduce 
the stress on the checkpoint, and we must right-size and resource TSA 
appropriately.
                       environment and objectives
    Our operating environment presents broad National security 
challenges that require highly-effective security measures now and in 
the future. We will certainly face new challenges as our adversaries 
continue to evolve their means to attack. Over the next several years, 
estimates indicate adversaries will likely use variants of previously-
seen tactics, employing improvised explosive devices or firearms, and 
could even resort to ground-based or in-flight attacks.
    Our National strategy for combatting terrorism sets our objective 
as stopping terrorist groups, hostile nation-states, and criminals 
before they can threaten or engage in attacks against the United States 
and its international partners, and TSA's aviation security mission is 
part of DHS's contribution to achieving this objective.
TSA Risk Methodology
    The current environment requires that TSA employ an intelligence-
driven, risk-based approach to secure U.S. transportation systems. 
risk-based security strives to deter, detect, and disrupt attacks on 
the Nation's transportation systems and critical transportation 
infrastructure, while facilitating the movement of legitimate travel 
and commerce. The vast majority of people, goods, and services moving 
through our transportation systems are legitimate and pose minimal 
risk. Thus, appropriately managing risk is essential in all areas of 
security responsibility. To do this, we must understand intelligence, 
as it drives our comprehension and assessment of that risk. As we make 
decisions on policy, operations, and countermeasures across TSA, we 
will apply risk-based methods to use our resources in ways that 
minimize risk and ensure system resiliency. We cannot do this alone; we 
must work closely with stakeholders in aviation, rail, transit, 
highway, and pipeline sectors, as well as our partners in the law 
enforcement and intelligence community.
    To support our risk-based approach, it is critical to continue to 
grow the population of fully-vetted travelers. At the same time, TSA 
will continue to apply appropriate measures to address known threats, 
unknown threats, and low-risk or trusted populations.
Securing the National Aviation Domain
    To protect the aviation domain, our strategy nests with the 
National Strategy for Aviation Security, forming the foundation of 
TSA's mission. The strategy sets 3 National objectives:
  <bullet> First, the Nation must use the full range of its assets and 
        capabilities to prevent the aviation sector from being 
        exploited by terrorist groups, hostile nation-states, and 
        criminals to commit acts against the United States, and its 
        people, infrastructure, and other interests;
  <bullet> Second, the Nation must ensure the safe and efficient use of 
        the Air Domain;
  <bullet> Third, the Nation must continue to facilitate travel and 
        commerce.
    TSA is committed to advancing the following strategic initiatives:
            Maintain a strategic, intelligence-driven focus that allows 
                    TSA to continuously adapt counterterrorism and 
                    security operations to a persistent, evolving 
                    threat
    We will employ risk-based operations tailored to each environment 
and transportation mode and will leverage intelligence, technology, the 
experience of our front-line operators and our private sector and 
international partners to ensure we employ effective and constantly-
evolving systems and capabilities.
    Proper application of a risk-based approach requires strong cross-
modal domain awareness. TSA must integrate surveillance data, all-
source intelligence, law enforcement information, and relevant open-
source data from public and private sectors to accomplish this 
objective. We will pay particular attention to the insider threat. In 
addition, we will strengthen our capability to conduct deliberate and 
crisis action operational planning, adjusting to new threats based on 
mission analysis, intelligence-driven testing of existing systems, and 
application of proven best practices and principles in the conduct of 
operations.
    Employing historically-proven practices and principles enhances 
consistency and performance of operations. Common tasks for mission 
success in screening, inspections, special mission coverage, and other 
operations should be practiced in realistic conditions and rehearsed 
frequently under the supervision of qualified and trained supervisors 
or subject-matter experts. Frequent rehearsals reinforce tactics, 
muscle memory, and sustain sharpness of perishable skills.
            Invest in our workforce to ensure it is mission-ready, 
                    expertly-trained, deliberately-developed, and led 
                    by mission-focused and value-based leaders
    The single greatest strength of TSA is its committed, professional 
workforce. We must continue to recruit and retain highly capable 
individuals whose talents and acuities are uniquely tailored to our 
operating environments. Of particular value are experienced 
specialists--such as explosives experts, air marshals, and canine 
handlers--whose capabilities are invaluable to our mission success. For 
them and for all our employees, we must invest in training and provide 
a career path for growth and development.
    I am committed to creating an environment where employees and 
leaders can develop, employees have the tools to be successful, and the 
workforce is motivated by TSA's mission, vision, and strategic 
imperatives. To provide the most effective transportation security, the 
workforce must be consistently learning and improving. I will strive to 
ensure that each of us at TSA headquarters serves and supports all of 
the officers, inspectors, marshals, employees, and private-sector 
partners who are on the front lines each and every day and in whom we 
entrust so much.
    My expectations include a strong emphasis on values, performance, 
customer service, and accountability. The traveling public expects 
efficient and effective screening and to be treated with dignity and 
respect, and we must ingrain these principles in agency culture by 
continually reinforcing this message of dignity and respect in training 
for our front-line workforce and management alike. I am confident each 
of the men and women at TSA will achieve my expectations.
    The TSA Academy, established at FLETC Glynco in January 2016, 
offers all new TSO hires a common basic training program and an 
environment to set foundational culture for TSA. Moreover, this 
investment will serve to improve performance and morale, foster an 
environment of growth and development, and develop future leaders.
            Pursue advanced capabilities through continuous innovation 
                    and adaptation to ensure our agency deters, 
                    detects, and disrupts the adversaries of the United 
                    States
    Central to TSA's mission is deterring a rapidly evolving global 
terror threat, with persistent adversaries who adapt their methods and 
plans for attack. Given this dynamic threat landscape, we must employ a 
strategic, systems-focused approach to ensure we evolve our ability to 
detect and disrupt the latest threat streams. As our adversaries adapt, 
so must we.
    We will continue to invest in National aviation intelligence 
systems, transportation sector vetting processes, enhanced explosives 
detection equipment, and improved checkpoint technologies. We will 
continue to train and develop our officers on technological and 
procedural limitations to enhance system knowledge and improve the 
human-machine interface.
    We will make a concerted effort to strategically develop and 
sustain a strong partnership with the homeland security enterprise 
industrial base and work with them to deliberately develop and validate 
capabilities. Every effort will be made to enhance the array of TSA's 
security capabilities to ensure an increased likelihood of exposure and 
experience to the traveling public. In the aviation sector, we will 
pursue a system design that identifies a mission essential level of 
capability that ensures deterrence as well as effective detection and 
disruption of items on the prohibited items list.
    The success of our core aviation security mission requires a 
continuous cycle of operational evolution. We will work to develop a 
system focused on identifying and addressing existing vulnerabilities. 
The global transportation threat requires TSA to employ a systems-of-
systems strategy that will enable us to stay proactively informed and 
connected to our industry partners.
    To field and sustain an integrated requirements and acquisition 
capability, I am committed to creating an efficient, effective, and 
dynamic resource planning/deployment process for our agency. TSA is 
focusing on building an acquisition strategy designed to counter 
evolving threats while concentrating on prioritizing advanced 
capabilities that are cutting-edge and adaptive.
                         imperatives for change
    Our critical examination of our screening operations also gave us 
valuable insight into imperatives for change--how TSA must evolve to 
meet the security and customer service challenges ahead.
    What do we do next? If we were rebuilding TSA from scratch today, 
would we do everything the same, or is there a better way, given not 
only the evolution of the threats we face but also the tremendous pace 
at which the aviation industry is growing? Last year alone, passenger 
growth was approximately 4 percent, nearly twice as much as 
anticipated.
    We have no choice but to explore different and innovative ways of 
doing business, of delivering the safety and security that is crucial 
to the operation of our transportation system. We have reached a 
critical turning point in TSA, both in terms of addressing the problems 
we have encountered and to begin our investment in a more strategic 
approach to securing the transportation sector.
                        tsa and counterterrorism
    One of my key objectives is to continue to position TSA as a 
counterterrorism organization. In pursuing this objective, we have met 
with key partners from the intelligence community and have repeatedly 
met with officials from a number of our industry partners including 
each of the major U.S. airlines, cargo carriers, and the key aviation 
and transportation sector associations. The transportation security 
system we are moving toward will require a collaborative, cooperative 
effort among Government and industry partners.
    We have met with our counterparts in other countries for thorough 
discussions on aviation, surface, and rail security from a global 
perspective. TSA maintains a strong relationship with the 
transportation stakeholders in other countries, and a significant part 
of our engagement has dealt with their concerns, priorities, and 
opportunities to pursue further collaboration.
                         risk-based assessment
    Over the last 4 years, we have made a significant shift to risk-
based security procedures. On January 12, 2016, TSA reached 2 million 
total enrollments for the TSA PreCheck<SUP>TM</SUP> Application 
Program. More than 6 million travelers are enrolled in a DHS trusted 
traveler program, such as Customs and Border Protection's Global Entry, 
and are eligible for TSA PreCheck<SUP>TM</SUP>. TSA is working 
aggressively to expand the number of enrolled travelers, with the goal 
over the next 3 years of enrolling 25 million travelers in the TSA 
PreCheck<SUP>TM</SUP> Application Program or a DHS trusted traveler 
program. This is a 4-fold increase from today. This is an important 
security component for TSA as it shifts to a model where ``low-risk'' 
individuals are either directly enrolled or part of an eligible low-
risk population that is known to TSA.
    Even more promising in terms of risk-based security procedures is 
the work we are doing on developing the Dynamic Aviation Risk 
Management Solution, or DARMS. The objective of DARMS is to unify, 
quantify, and integrate information across the aviation sector in order 
to comprehensively assess risk on an individual, on a per flight basis. 
DARMS will integrate information on passengers, checked baggage and 
cargo, aircraft operators, and airports and airport perimeters.
    This kind of system-side application of risk-based principles will 
allow greater screening segmentation and a more efficient, effective, 
and agile reallocation of resources.
    Early this year, TSA will finish the initial proof of concept of 
DARMS for passenger screening. Within the next 1 to 3 years we plan to 
finish the design and create a prototype that incorporates the complete 
aviation security ecosystem and which tests and evaluates the approach 
at a few select airports. And within 4 to 10 years, we plan to 
gradually introduce DARMS at airports. We look forward to sharing these 
plans in more detail with Congress.
    We have actively worked with industry throughout the process to 
leverage their knowledge and expertise, solicit their feedback, and 
refine the approach. TSA is committed to continuing that collaboration 
and strengthening those partnerships.
                   training and mission capabilities
    As mentioned previously, and thanks to help from Congress in our 
appropriations last year, we started conducting new hire training for 
TSOs at the TSA Academy. Previously this training was decentralized and 
conducted at individual airports.
    The TSA Academy connects TSA's front-line workforce with other DHS 
partners and provides a consistent training experience that improves 
performance and professionalizes the officer workforce. Delivered in a 
dedicated, high-quality environment conducive to realistic, scenario-
based learning, the Academy will help instill a common culture and 
esprit de corps at the beginning of an officer's career, and enable us 
to instill core values and raise performance standards across the 
screening workforce.
    The dividends are already apparent. Training in this manner ties 
the individual to mission. It ties the employee to the larger 
organization with a critical mission--to something bigger than 
themselves--and it ties them to a sense of what the oath they took to 
protect this country really means.
                 technology and acquisition innovation
    We also are rethinking how we invest in technology to better ensure 
that our investments are driven by threat and not by life-cycle.
    While we continue to improve detection capabilities on our existing 
equipment, our investment in new technologies must exceed the speed of 
the enemies' ability to evolve. Our recently-published Strategic Five-
Year Technology Investment Plan for Aviation Security is an example of 
thoughtful planning toward these ends. Interaction with industry in 
developing the report was insightful, and we are optimistic that this 
increased collaboration will prove beneficial.
    The Defense Acquisition University is conducting an independent 
analysis of our acquisition management processes, programs, and 
organizations to address this challenge, which will inform future 
adaptations to our acquisition governance. This effort is complete and 
TSA is reviewing and developing an implementation strategy.
    In addition, TSA is partnering with the DHS Science and Technology 
Directorate (S&T) to further align research and development (R&D) 
projects to acquisition needs. Improving this critical process will 
better enable us to identify capability gaps and to coordinate R&D to 
close those gaps.
    The Transportation Security Acquisition Reform Act (Pub. L. 113-
245), signed into law in 2014, has helped us by mandating increased 
transparency and the use of best practices for security technology 
acquisitions. The law also allows TSA to advance small business 
contracting goals and expand our partnership with industry and aviation 
security stakeholders.
    TSA is also partnering with S&T and several private entities to 
develop the potential future of passenger screening models. Future 
private-public collaboration in curb-to-gate security systems may offer 
the leap forward in aviation security that can absorb system growth, 
increase effectiveness, provide operational resiliency, and improve the 
passenger experience.
                  staffing models and right-sizing tsa
    Rightsizing our staffing, training, and equipment needs are 
critically vital investments, and sets a firm foundation for the 
continuing evolution of TSA. I appreciated the committee's support and 
funding for each of these important priorities as part of the Fiscal 
Year 2016 Consolidated Appropriations Act (Pub. L. 114-113)--and 
request continued support in our fiscal year 2017 budget. As traveler 
traffic volume grows, it is crucial we re-examine our assumptions and 
models for future fiscal years, which is underway now.
    We are a smaller organization than we were 4 years ago, with about 
6,000 fewer TSOs in the screening workforce. The fact is we cannot 
build a workforce indefinitely. We have a limited geographic footprint 
in every airport--some large, some small. Only continuous innovation at 
the checkpoint will meet the challenges posed by passenger volume 
growth. Eventually, we will reach capacity, and in some places we 
already exceed capacity during peak travel periods.
                         tsa senior leadership
    Good leadership requires good people who are committed to the 
mission. Last September, I convened a meeting of TSA's executive 
leadership. The meeting allowed me to lay out my vision for evolving 
TSA into the counterterrorism organization our mission demands. The 
dialogue at this 2-day event was spirited, and we wrapped up with a 
work list of items that will move our agency forward.
    In addition to the range of projects supporting screening 
operations improvements, we are examining discipline, empowerment of 
front-line leaders, expanding information sharing, improving training, 
and exploring ways of consolidating operations and support activities 
in TSA headquarters. We have also changed the metrics that leadership 
collects and uses to focus more on effectiveness than efficiency at the 
checkpoint.
    In addition to the standardized training for our front-line 
employees, I am also committed to continued development of our agency's 
leaders. I have begun a Leadership Speaker's Series for senior 
leadership that covers topics such as ethical leadership, leadership in 
action, and leading effective operations. We will be sending senior 
leaders to leadership courses to strengthen their skills. Additionally, 
I have reformed guidelines regarding SES special act awards.
                         administrator's intent
    Mission success is built on a shared understanding of objectives, 
unity of purpose, and alignment of values and principles. In January 
2016, I published my Administrator's Intent, an effort to articulate 
those objectives, the approach we will pursue in accomplishing our 
essential counterterrorism mission, and the values and principles that 
define TSA.
    Central to our success is a commitment to a common set of values. 
We will operate with the core values that define us as an agency--
integrity, innovation, and team spirit. Building on these, my Intent 
outlines the principles we care about as an agency.
    Simply stated: We will Focus on Mission, Invest in People, and 
Commit to Excellence.
  <bullet> Focus on Mission.--Since my first day at TSA, I have 
        stressed the importance of putting our mission first. Focusing 
        on our mission helps us prioritize our resources and operations 
        to meet the threat. It also informs how we must invest in our 
        workforce to achieve mission success.
  <bullet> Invest in People.--Our culture, effectiveness, and mission 
        readiness are a direct result of consistent and career-long 
        investment in people and set the foundation for agency success. 
        Our people are our most important resource, and I am committed 
        to ensuring they have the tools and resources to succeed. 
        Value-based leadership, a foundation of training, recruiting, 
        and retaining talent, and appropriate recognition are core 
        elements of our approach.
  <bullet> Commit to Excellence.--Our standard is excellence in all 
        mission areas. We operate in a global environment where the 
        threat remains persistent and evolving. As we pursue our 
        counterterrorism mission, we will relentlessly pursue 
        excellence, through a culture of constant improvement, 
        organizational adaptation, and a disciplined pursuit of 
        professionalism.
    Of the many positive impressions from my early tenure as TSA 
administrator, the most profound is the one I have gleaned from our 
workforce. They are incredibly patriotic and passionate about our 
counterterrorism mission and will perform well if properly trained, 
equipped, and led.
    Many profound and important tasks lay ahead for TSA, and we are 
committed to leading this agency guided by these values and principles. 
It is a noble mission for which the men and women of TSA are prepared. 
Thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Mr. Katko. Thank you, Admiral Neffenger. I appreciate your 
being here today. I now recognize myself for 5 minutes of 
questions.
    As I have said many times and in many different scenarios, 
TSA was born out of a tragedy, that being 9/11, and it was an 
agency that was cobbled together to address deficiencies with 
respect to airport screening and security at airports in 
general across this Nation and other areas as well.
    It appears to me and it appears to everyone that there are 
a lot of growing pains within the agency and administration, 
but it also is apparent that you are the right person for the 
job. We commend you on the job you have been doing, you have 
been doing a wonderful job, and there is a lot more you need to 
do.
    With that being said, I want to delve right into some of 
the questions that I have, because in my old days as a 
prosecutor, if you didn't ask a question right away, the judge 
would smack you. So I am not prone to making long statements.
    So I am looking up at the screen here. As you see, there 
are some discrepancies between the planning and what is being 
requested in the budget and in the Five-Year Plan. The Five-
Year Plan was instituted to force TSA to have a blueprint going 
forward, and part of it was because of procurement issues that 
they have sustained, and it seems like there are some anomalies 
here. In no particular order of importance, I would like to 
kind-of take a look these.
    One thing that jumps out to me really is the enhanced metal 
detectors. They submitted a plan to us in August, the Five-Year 
Plan, they testified to it in January talking about these 
things. It is in the 2016 request. Now for the procurement for 
2016 there is zero, in 2017 there is only 70. Can you explain 
that?
    Mr. Neffenger. Chairman, I had the same question when I saw 
this, because, as you know, that plan came out as I came on 
board and was developed. It was developed to, as I understand 
it, to fiscal year 2014 baseline numbers across the Department. 
So that is one challenge, is that you are building it to 
numbers that are in the past.
    The basic answer, and it is an answer that makes sense to 
me, although it is challenging to parse it all out, but the 
basic answer is that you have got a couple of things going on.
    First of all, we took a look at the existing state of metal 
detectors across the system. As it turns out, they are 
operating much more efficiently and effectively than we were 
expected at this stage of their life cycle. Part of that is 
because they aren't used as often as they were before now that 
we have AIT machines out there. So one aspect is you have got 
metal detectors that are operating to standards and they are 
performing well and we haven't seen the maintenance costs go 
up.
    The second piece at work is the Department is in the 
process of looking at strategic sourcing across the Department 
for metal detectors. TSA is not the only component within the 
Department of Homeland Security that has a demand or a 
requirement for metal detectors. So we have been asked to take 
a pause as the Department looks at its strategic sourcing. As 
that is being worked through, we put a pause on our procurement 
while we are waiting to see what the Department comes up with.
    So that is the general response there.
    That said, I think the roadmap and the Technology 
Investment Plan is sound. It does address the need to identify 
follow-on procurements for the metal detectors going into the 
future, and we are working right now with the Department to 
rebaseline that so we know exactly what we will be purchasing.
    Mr. Katko. I understand the answer, but just preliminary, 
before I get into what I want to really want follow up with, 
are these the same metal detectors, these new ones, are they 
the same technology or are they enhanced, better technology 
than the ones that currently exist?
    Mr. Neffenger. It is roughly the same technology. It is a 
little newer and it might have some more advanced processors in 
it, but it does the same thing.
    Mr. Katko. Okay.
    Mr. Neffenger. What we are finding is that we are able to 
detect to the right standards with the current technology.
    Mr. Katko. So the whole idea of this Five-Year Plan was for 
you to make some decisions, tell us about them. And it seems 
like this identifies one of the systemic problems at TSA, and 
that is, you say one thing and you do another. I am not saying 
you in particular, but the agency. That is part of the concern 
that we have, and it is a concern we have had repeatedly from 
industry. So while their concerns are part of the equation, 
safety is paramount.
    But the concern I have is the agency can't even stick to a 
Five-Year Plan and give it to Congress because within a few 
months they are changing it and changing it quite dramatically. 
Then you look at the credential authentication technology, 
there is none in the Five-Year Plan, and all of a sudden out of 
nowhere comes 1,100 in the 2016 procurement. So can you explain 
that to me?
    Mr. Neffenger. I think you are familiar with what that is. 
That is the ID reader that would replace what is currently done 
by a travel document checker.
    The big challenge with that is that that is a--as you know, 
we prototyped that in a couple of large airports last summer. 
The prototype, or the pilot project, went very well, it did 
exactly what it was supposed to do. But then we had a number of 
big data breaches in the Federal Government, the OPM being the 
most egregious. That changed everything with respect to when 
you plug systems into secure databases.
    So we have had to go back, and we are working very closely 
with the manufacturer, to ensure that it meets the new 
cybersecurity standards and the cyber vulnerability standards 
that it has to meet before. I personally believe that this is 
important that we do. I do not want to plug that into the 
Secure Flight database, for example, and not be certain that I 
can monitor whether or not somebody is trying to access it.
    So it set us back about 6 months or so on that project 
because we have to install--there is software that has to be 
installed on each device to monitor the interactions that are 
happening. Then there is a card reader that has to be put in 
for somebody to log into the device.
    It is actually on a good track, but as I said, it set us 
back about 6 months in that procurement, which is why it got 
pushed into fiscal year 2016 and further.
    Mr. Katko. All right. I appreciate that. When was that 
decision made to update these credential authentication 
technology devices? Was it made recently or was it made 6 
months ago or----
    Mr. Neffenger. No, it has been recently, because, as you 
know, the Department has been working on the approach to take 
to cyber standards and cyber vulnerability. The Department has 
what they called cyber sprint, which is a series of near-term 
measures that have to be taken to ensure that we are doing 
across the board, both in the Government, as well as in 
industry, the things we need to do to protect.
    We are part of that sprint. This falls right underneath 
that. So they are very interested in ensuring that systems that 
we plug into databases that are owned and operated across the 
Government don't inadvertently make those databases vulnerable.
    Mr. Katko. Last, before I turn my questions over to the 
Ranking Member, the Five-Year Plan is supposed to mean 
something, and it was passed because it was a piece of 
legislation that was meant to force GSA to have a track.
    Now, they were just here a month ago and there is no 
mention of these things. So I would really appreciate it, and I 
would ask going forward that when people come to testify before 
Congress and there are major changes in the Five-Year Plan, 
that they notify us, because that is really important to help 
us know that we are given proper oversight.
    The Five-Year Plan is not something that can be ignored. I 
would ask that moving forward, that they take the Five-Year 
Plan with the seriousness with which it was passed into law. 
Okay?
    Mr. Neffenger. Yes, sir. If I can add to that, I concur 
with you completely, and my concern is that we bring you things 
that make sense and things that we can actually do.
    Concurrent with this, one of things I have looked at hard 
since I have been on board is our current acquisition program 
across the whole spectrum. All of this is tied to the way in 
which you analyze missions, set requirements, and then post 
those requirements in a way that is responsive to the industry 
and the industry participation.
    I asked the Defense Acquisition University to come in 
shortly after I came on board and said: I want you to take a 
hard look. DAU, as you know, is an adjunct to the Defense 
Department that takes an independent, objective look at the way 
in which Federal agencies procure and acquire.
    I asked them to pull the covers off and see whether we are 
doing things as we should. My suspicion was that we had gaps 
and we had some places we can improve.
    I have just received their report. Not surprisingly, they 
identified that we had some gaps and some things we could do to 
improve. It ties directly to our ability to properly forecast 
and determine where we are going. As I said, I think the 
Technology Investment Plan is a sound roadmap, but I think we 
need a better requirements-generation process on the front end.
    So what I hope to do is come forward to the committee, once 
I analyze that report that I got from the Defense Acquisition 
University, and outline for you where I think we can make some 
dramatic improvements in the entire approach to acquisition.
    Mr. Katko. Thank you, Admiral.
    The Chair now recognizes the Ranking Member for 5 minutes 
of questioning, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Admiral, what is the agency doing to increase the number of 
people who actually go through the TSA PreCheck application 
process? Because now that you are doing away with Managed 
Inclusion, the lines are going up. Now that need to kind of 
reach-out to the public and increase the number of people who 
take advantage of the system is even more critical.
    Mr. Neffenger. Well, thanks for that question. There are a 
number of things that we are doing, so I will try to just 
highlight the categories of things.
    First is making sure that we have identified all the 
already vetted and cleared populations that we could bring into 
the expedited screening program, the PreCheck program. As you 
know, we have members of the military who hold clearances, we 
have Members of Congress, members of other Federal agencies. So 
we have expanded that population to what we think is the 
reasonable expansion given the extent to which we know people 
are vetted for security clearances. So that is the first thing 
that we did.
    We have also worked very closely with airlines, with 
airline associations, with the travel industry to improve their 
marketing of the availability of PreCheck, and there are a 
number of airlines that have done a superb job of doing that. 
So if you have flown on United recently, for example, you will 
see on their in-flight entertainment systems there will be 
advertisements for that. We worked with the existing vendor, 
which is the vendor that provides services in airports, to 
expand their opportunities to the extent possible to streamline 
the enrollment process.
    All of that has resulted in a dramatic increase in daily 
enrollments. So we are about double the daily enrollments this 
time this year than we saw at this time last year. So we have 
gone from about 3,200 daily enrollments to about 6,200 daily 
enrollments. So that has helped considerably. That puts the 
PreCheck population now at around 2 million people. When you 
add in those vetted populations, already-vetted populations, 
and the people who are part of Global Entry, that brings it up 
to about 9 million people.
    Miss Rice. So what number do you want to hit?
    Mr. Neffenger. We would like to hit 25 million. That is 
considered to be the key number to dramatically change the way 
the system operates.
    We have also got a request for proposal that closed 
recently that sought opportunity for other private-sector 
businesses to enter the enrollment opportunity process. So this 
would provide a number of different opportunities for private-
sector entities to come in, provide enrollment services. TSA 
always maintains the vetting of the individuals, but this would 
be a front-end enrollment, verifying their identity, verifying 
the basic documents and that sort of thing, and then providing 
us with the names.
    That process is going through bid evaluation right now. So 
we had a pretty robust response to that request for proposal. 
That is going through bid. Assuming all goes well, given the 
way in which the acquisition process works, we should be able 
to award by midsummer, which means that you could by 
conceivably before the end of the calendar year have additional 
opportunities. That would put it out in the retail environment 
so that you wouldn't have to necessarily go to an airport. You 
might see it in a kiosk in a local shopping mall or a shopping 
center or something like that.
    So that is part of it. We are also working with and I have 
been talking to my counterparts within the Department, people 
who have other Trusted Traveler programs, like CBP, to look to 
see whether we can conform our Trusted Traveler program with 
theirs more effectively so that it just becomes easier for 
people. I am concerned that it is still a little cumbersome to 
enroll, and it is not always clear, if you are enrolling in 
one, whether you are getting the other one. So we are looking 
to combine that, and the Department right now is helping us to 
manage a little more unified approach.
    I think that we are on a good track right now given the 
limited opportunities that are available. As you know, you 
can't enroll everywhere, and even if you try to enroll on-line 
there are some challenges associated with that. But I am 
encouraged that we are seeing a lot of growth.
    I think that people who were getting this through Managed 
Inclusion and aren't getting it anymore, that has been one of 
the biggest improvements to our marketing, they want to get 
back in that line. But it is not growing as fast as I would 
like to see it grow, which is why I am very interested in 
seeing if we can get this RFP bid determined soon and start 
offering more opportunities.
    I think 2016 is going to be a challenging year still, but I 
think in 2017 we could see dramatic improvements assuming that 
this opportunity presents itself in the way we hope.
    Miss Rice. So can you tell us what you are doing to 
mitigate threats to the surface transportation sector?
    Mr. Neffenger. As you know, surface is one where we don't 
have direct security responsibility, but we do set standards 
and we work very closely with them. I have got about a little 
over 300 people total that are dedicated to surface 
transportation across the Nation. They work with about a 
thousand different corporate entities, and then a few thousand 
additional public entities that provide everything from school 
bus services to over-the-road buses, local rail, light rail, 
metro, passenger rail, and the like.
    So there are a couple of aspects that we have. You have an 
inspection program that works collaboratively with varying 
entities to set base assessments. There is a series of 
standards established for what a security program needs to look 
like. We inspected that, it is a voluntary program, but almost 
everybody participates. It sets a baseline assessment, and then 
they hold collaborative work to determine what needs to be done 
and how to target some of the improvements. There is also an 
exercise program that is run on a periodic basis to determine 
their readiness to respond to incidents.
    Depending upon the sophistication of the entity, and you 
have some very sophisticated entities like the New York transit 
system, with the transit police and so forth, a very robust 
security program. That is one that you can actually take best 
practices from and import to other places. Amtrak has a very 
robust security program and the like.
    Miss Rice. The communication between your agency and other 
agencies is good and everyone understands they need to----
    Mr. Neffenger. I think so. In my travels, I meet with 
people in the surface world, and the overwhelming response I 
have been receiving is that they like the way we have been 
pushing information out to them. We have a pretty good sharing 
arrangement for moving intelligence in and out, both sensitive 
intelligence to the law enforcement agencies, as well as tear 
sheets for the private sector people that need information.
    The upside is that the overall threat environment is still 
relatively low, but we do modal assessments. I think we provide 
copies to the committee, but I will make sure you have the 
latest round of intel assessments that we have done across each 
of the modes of the surface world. Low doesn't mean no risk, 
but it means that if you can address what you know to be the 
key vulnerabilities across the system, that we can watch for 
developments that may pose a potential problem.
    We also work very closely with FEMA to determine the 
distribution of grants. So we help FEMA evaluate grant 
proposals or proposals for grant funding. Congress appropriated 
$100 million in fiscal year 2016 for surface transportation 
grants, $10 million was directly for Amtrak, another $3 million 
for over-the-road buses, and then the remaining $87 million is 
yet to be determined because those grant proposals are coming 
in right now.
    Miss Rice. So I am way over my time. I just want to end by 
saying you have got one the toughest jobs. But I appreciate 
your vision and your willingness to try to bring this agency up 
to the standards that we all expect it to be at. I really can't 
think of anyone better to lead the agency than you, and I am 
just echoing the Chairman's comments before.
    So thank you very much, and I yield back my time.
    Mr. Katko. Thank you, Miss Rice.
    I will note with respect to the PreCheck that we had in my 
airport in Syracuse, they used to have to drive 45 minutes 
north to Oswego, New York, to the port to get PreCheck, and now 
we got a kiosk put in the airport, and it is jammed all the 
time with people signing up. So it is a perfect example of 
making it convenient for the travelers. It is going to work. I 
dearly hope we get to the goal you are talking about. But it is 
a program that should be expanded and it is going great.
    The Chair now recognizes the Ranking Member of the Homeland 
Security Committee, Mr. Thompson, for 5 minutes of questions.
    Mr. Thompson. Thank you very much, Mr. Chairman. I am glad 
you had a chart to go with my comments about the procurement 
plan.
    Mr. Katko. Would you like it back up?
    Mr. Thompson. No, I just want to reiterate to the 
administrator that we passed that. That is an intent of 
Congress for you to you do that. I think you have to get your 
team to follow the instructions of Congress. That is real 
important.
    The other thing is, you asked for money to do procurements, 
but I am wondering a small business, how can a small business 
follow the procurement process and at the end of procurement, 
because they don't have a bottomless pit of money, what are you 
going to do to make sure that we don't unnecessarily deny small 
businesses an opportunity to do business with TSA?
    Mr. Neffenger. Well, thank you, Mr. Thompson, for the 
question. As you know, you and I have had this conversation a 
number of times, I actually am very concerned and I am very 
interested in getting as much competition and as much small-
business involvement as possible. My personal belief is that 
some of the most innovative and creative work being done, 
particularly in the area of software and hardware development 
in the security world, is being done in small businesses.
    So there are a couple of things at play here. That 
Acquisition University study I brought in is directly related 
to how well you can entice people to participate and how easy 
the participation is. So that is one piece of it, is to make 
sure that you have a front-end process that provides the 
incentive and the research and development incentive on the 
front end, tied very clearly to clearly stated requirements and 
capability gaps, and then hold small-business seminars and 
industry seminars to determine that. So we have done a little 
bit of that already. I think there is more of that that we need 
to do.
    I am pleased that we have attained nearly all of our small-
business participation targets for this last year. I want to 
set a larger stretch goal for our targets. But I also want to 
find a way to incentivize more effectively, and we can do that. 
Actually, the DAU had I think some sound recommendations for 
how you build that into the way you do acquisition. So I look 
forward to providing more a detailed example of that.
    But I met recently with a number of small-business 
representatives, and I also met with the national Security 
Manufacturers Coalition which included quite a few small 
businesses. They identified this as a challenge that they have 
faced with us for some time.
    Mr. Thompson. So you do understand that probably every 
Member of Congress is approached by businesses in their 
district wanting to do business.
    Mr. Neffenger. Yes, sir.
    Mr. Thompson. But they always talk about how complicated it 
is.
    Can you provide us the latest small-business statistics----
    Mr. Neffenger. I will.
    Mr. Thompson [continuing]. With TSA that you just alluded 
to?
    Mr. Neffenger. Yes, sir, I will.
    Mr. Thompson. I have referenced the FAMS program and that 
only 5 percent of the FAMS are female. Have you challenged your 
team to address that problem?
    Mr. Neffenger. I have. As you know, part of the challenge 
has been we haven't been able to hire since 2011. So I thank 
Congress for the opportunity to begin to replace. The average 
age of FAMS right now is 43, and 30 percent or more will time 
out on mandatory retirement over the next 5 years. But the fact 
that we can hire this year gives us an opportunity to address 
this diversity problem. I know it is Director Rod Allison's No. 
1 priority.
    So there are a couple of things we are doing. We are 
marketing it internally in TSA under a ``Why not you?'' 
campaign, and we are especially targeting underrepresented 
groups and women. We think that there is an untapped resource 
out there that will find its way into this program if they have 
the opportunity.
    It is hard to overestimate how much you lose by not hiring 
for a period of time. Nobody even thinks about the FAMS anymore 
and you have no opportunity to address this problem. But we 
have some targeted recruiting efforts going on right now that 
are targeting, as I said, underrepresented groups. What I would 
like to do is provide you with that recruitment plan that we 
have, and I will send that to the committee so that you have 
that.
    Mr. Thompson. Please. I would look forward to it. We will 
respond accordingly.
    Most agencies tend to recruit in the capital region.
    Mr. Neffenger. This is a Nation-wide recruiting pool.
    Mr. Thompson. Good, good.
    The other thing I talked about was airports having put TSA 
on notice already about the summer months, the anticipated long 
lines, and they are asking TSA to look at it and provide some 
relief. What have you done to address those concerns?
    Mr. Neffenger. Well, I think we have got a number of 
projects underway right now and a number of efforts underway. 
Let me underpin it by saying, we have seen record travel volume 
over the past couple of years. Atlanta, in particular, the 
airport that you are referencing, has seen a 14 percent growth 
in passenger volume just in the past year. That is on top of 10 
percent the year before.
    So that is a challenge in anybody's book. It is a challenge 
for the entire system. It is one of the reasons I asked to hold 
staffing steady to stop the further reduction of the front-line 
TSOs. As you know, we have come down 5,600 people since 2011 in 
our front-line staffing. So we have held steady now, and I 
wanted to hold steady because I knew that the combination of 
focusing more effectively on our mission and moving people back 
into standard screening lanes was going to put a lot of 
pressure on the wait times.
    So what are we going to do in the near term? The larger 
story is we have to get staffing right, and we are in the 
process of looking very hard right now. Within the next week or 
2, I am going to get a number that shows a little bit more 
effectively what the staff level should be to meet the 
challenges that we are facing. But in the face of that you have 
still got to deal with what is going to be a very large travel 
season.
    So in addition to talking to all my--personally, I have 
spoken with the CEOs of each of the major airlines. I convened 
a conference call about a week-and-a-half ago of the top 20 
airports, the airlines that service those airports, and TSA. 
These were the operations managers, the people who are 
responsible for figuring schedules and the like. We are putting 
in airport by airport at each of the--those 20 airports, by the 
way, represent about 85 percent of the daily population. So if 
you can get that right, you will alleviate the problem.
    We are looking at any way possible to mitigate collectively 
to deal with this as a system instead of just a series of hand-
offs in the system. So that is the first step, is a true 
collaborative effort, airport by airport, and looking for any 
innovative solutions and importing those around. As we learn 
best practices, we will move it. If we have people who do 
things really well, then we are going to put teams together 
that will move from airport to airport to optimize.
    The other thing we are doing is I am husbanding as much 
overtime resource hours as I can right now and pushing those 
into the summer, and we are front-loading our hiring so that we 
are hiring as fast as we can and we are pushing people through. 
We are adding classes to our new TSA Academy. We are running 8 
concurrent classes right now, starting every week. We started 
another 8 classes.
    So my goal is to do as much as possible and hire to our 
staffing levels, our authorized staffing levels, as fast as 
possible. I hope to get that done before the summer season 
starts and then deploy those people. We are also targeting it 
to those airports where we know there to be the biggest 
challenges.
    Mr. Thompson. So your testimony is that, now that you are 
aware of the problems, by summer you will have those problems 
addressed.
    Mr. Neffenger. Well, we will address them. I am not saying 
that we are going to get it perfect across the board, because I 
think we are still going to have some challenges. But we are 
addressing those problems across the board. In fact, I am going 
down to Atlanta next week to meet with the director of the 
airport and my Federal security director to directly address 
some of those concerns. I will be bringing a team that will be 
evaluating how they do it. So we have done that. We are doing a 
lot of work at Newark, JFK, Dallas, LAX, and the like.
    I think you are going to still see some increased wait 
times. I had to get better at the primary mission. Part of the 
problem that we had is we were actually moving people very 
effectively through the system, but we weren't actually doing 
our job well. So you had to do the job well, and that increased 
wait times by definition.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Katko. Thank you, Mr. Thompson.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank you, Mr. Neffenger, for being here. I want to 
continue with the theme specifically for the Hartsfield-Jackson 
Atlanta International Airport.
    Mr. Neffenger, I hold in my hand the letter that has been 
referred to that was sent to you by the general manager of 
Hartsfield, Mr. Miguel Southwell. In this letter here, he of 
course, as you know, expresses concern about the long wait 
times and actually attributes it to understaffing of the TSA 
personnel and asks that to be addressed.
    Mr. Chairman, without any objection, I would like to have 
this letter introduced into the record if that is okay.
    Mr. Katko. Without objection, so ordered.
    [The information follows:]
    Letter Submitted For the Record by Hon. Earl L. ``Buddy'' Carter
                                 February 12, 2016.
Hon. Peter Neffenger,
Transportation Security Administration, 601 12th St., Arlington, VA 
        22202.
    Dear Administrator Neffenger: The purpose of this letter is to 
update you on the status of the passenger screening process and 
relationship with the TSA at Hartsfield-Jackson Atlanta International 
Airport (ATL).
    I'll begin this letter by saying that in terms of the partnership 
between the Airport and the TSA, I can confidently say that no closer 
coordination exists than that between ATL and Atlanta FSD Mary 
Leftridge Byrd and her team.
    There is a cohesive and respectful relationship that helps ensure 
successful operations. Local TSA is very insightful and always willing 
to assist. ATL security staff and executive leadership meet almost 
daily, and formal meetings are scheduled bi-weekly.
    However, Hartsfield-Jackson is still plagued by inadequate TSA 
staffing. ATL struggled with TSA staffing shortfalls in 2015, and the 
Airport is dreading the outcome of summer 2016. The TSA did execute a 
7.5 percent increase in staffing. This increase--while appreciated--was 
late and inadequate.
    We started 2015 woefully understaffed. Through the persistent 
efforts of FSD Mary Leftridge Byrd, the recognition of the domestic 
checkpoints as three separate and distinct checkpoints (6 lanes 
Terminal North, 4 lanes Terminal South and 18 lanes Main Terminal) 
came, but later in the summer. This was compounded by the fact that in 
your agency's fiscal year ending September 2015, Atlanta's TSA 
passenger traffic grew 10 percent over the previous fiscal year. As a 
result, several times throughout the day from May to October 2015, wait 
times exceeding 35 minutes were not uncommon. This morning as I write 
this letter, wait times up to 52 minutes were experienced between 6:00 
am and 6:30 am. This is unacceptable as reflected in the customer 
service surveys of our hub carrier Delta Air Lines.
    We fear an even busier summer this year. In the first quarter of 
your agency's current fiscal year that began Oct. 1, 2015, Atlanta's 
passenger traffic has jumped 14 percent over the first quarter ofthe 
previous fiscal year. And we know of no staffing plans to service this 
mammoth growth in demand.
    We are working hard to do our part. We have been collaborating with 
the FSD and have launched a joint local campaign to boost the number of 
pre-check passengers. This includes tapping into the membership of 
Atlanta's local-area chambers of commerce to promote the pre-check 
program amongst their membership, and asking large corporations to 
follow the City of Atlanta Department of Aviation's lead to promote and 
fund their traveling-employees' application for Global Entry or TSA 
Pre-Check Program. We have pushed for, and have been made a part of, 
the joint program by Airports Council International (ACI World) and the 
International Air Transport Association (IATA) to join their Smart 
Security Program, so that we may, in collaboration with TSA and our 
airline partners, participate and invest in leading-edge technology and 
process realignments, to facilitate more effective and efficient 
screening at ATL's security checkpoints.
    Even with all of our efforts, however, as the airport's experience 
demonstrates, things appear to be only getting worse. It is for this 
reason that we are giving serious consideration to your agency's 
Screening Partnership Program (SPP), which allows airport operators to 
apply to have passenger and baggage screening perfonned by qualified 
private contractors--essentially privatizing the security screening 
process. We have been conducting exhaustive research with current SPP 
airports, weighing both the pros and the cons, and barring the 
implementation of some transformational technology or a dramatic shift 
in the staffing allowances in the next 60 days, Hartsfield-Jackson will 
take steps to launch SPP at the world's most-traveled airport.
    It would be my privilege to speak with you more on these issues 
with the goal of arriving at a solution to boost the effectiveness and 
efficiency of Atlanta's passenger screening.
            Sincerely,
                                          Miguel Southwell.

    Mr. Carter. So, Mr. Neffenger, you are aware of this 
letter, of course, you are familiar with it.
    Mr. Neffenger. I am.
    Mr. Carter. Well, in that letter Mr. Southwell actually 
says if there is not an increase in TSA personnel at the 
airport, that he will have no other choice but to apply for the 
Screening Partnership Program.
    Now, the Screening Partnership Program, it is my 
understanding that this committee has been working with you and 
working with TSA to try to get accurate cost estimates of 
exactly how much it would cost to implement this program and to 
run this program at the airports. Is that correct?
    Mr. Neffenger. That is. As you know, GAO did a study, a 
recent study, and the general gist of that was the direct cost 
to TSA versus the additional costs associated----
    Mr. Carter. Okay. But I am not talking about GAO's report 
right now. I am talking about, are you working with the 
committee in trying to get cost estimates as to how much it 
would cost?
    Mr. Neffenger. Yes, sir, we are.
    Mr. Carter. Okay. So you are working with our committee now 
on that, and that is very important.
    Do you have any idea when that will be submitted, when that 
will be finished?
    Mr. Neffenger. To be honest, I think we are done with that 
now. So I don't think there is any reason why we can't--we have 
accepted the GAO recommendations. We have changed the way we 
display those costs. I am required by law to display the direct 
cost to TSA, but we have added what are called the imputed 
costs, the things that are outside the TSA budget but include--
--
    Mr. Carter. Okay. So you have accepted GAO's report that 
estimated there would be a 17 percent cost savings on this if 
this were implemented, correct?
    Mr. Neffenger. Well, what we have done is we have accepted 
their recommendation that we adjust the way we display costs so 
that we include those costs outside our budget but still cost 
to the Federal Government.
    Mr. Carter. But still there would be a savings realized of 
about 17 percent.
    Mr. Neffenger. It actually runs from 2 to 17 percent 
depending upon which airport they looked at. GAO said it is 
difficult to draw large conclusions because there is a 
relatively small sample group. But we have said that--certainly 
in the first year that is what they say. What they asked us to 
do was track it over time to see if those savings hold----
    Mr. Carter. Okay. But with this in mind, with the fact that 
it will save in mind, are you encouraging this program?
    Mr. Neffenger. If an airport wants to go into the Screening 
Partnership Program, I have no objection to it. In fact one of 
the things I asked to do when I first came on board was to 
streamline that process so that it is transparent, it is 
available, and it is understood. Just the way in which the 
procurement runs, it takes about 18 months to go from request 
to contract award. But remember that the TSA awards a contract 
on behalf of and they still have to work for the Federal 
Government.
    Mr. Carter. I understand. Well, again, I didn't get the 
answer. Yes or no, are you encouraging airports to use these 
programs?
    Mr. Neffenger. Yes. Well, I mean, if by encouraging you 
mean we advertise it, we make it available, we tell people how 
it works.
    Mr. Carter. Okay. Are you offering any kind of financial 
incentives to them to use this program?
    Mr. Neffenger. I don't really have any financial incentives 
to offer.
    Mr. Carter. Well, if you could save 17 percent, if you 
could save 17 percent, I mean, even if you offered them just 
half of that to improve their facilities at their airport, 
don't you think that would encourage them to use the program?
    Mr. Neffenger. I am not sure I have the authority to do 
that. But there may be some ways to incentivize it if we wanted 
to do so. I think my primary job is to ensure that we provide 
services at or below the cost that it would provide, the 
Federal services would be.
    Here is what I would say, though. Regardless of the way you 
do it, the challenges are the same for everybody. Remember it 
has to be at or below my cost. So----
    Mr. Carter. But GAO has said that this would be below your 
cost, you would recognize a cost savings for it. It just seems 
to me like you would offer that incentive, that financial 
incentive to the airports, I mean, just to help.
    Because obviously we have got a serious problem. Listen, I 
can attest to it, I have recognized it personally. I have to 
stand in those lines at the Atlanta airport. They are, they are 
just terribly long, and we have got to have some relief here. 
Any time we can get the private sector involved, I am all for 
it.
    Mr. Neffenger. What I will tell you is that we are seeing 
roughly the same challenges whether it is a private or Federal. 
The challenge is caused--it is an arithmetic problem, but 
primarily you have a lot of people traveling, you have more 
peak periods than we have had in the past, and you have a 
certain level of staffing that you can't get beyond.
    Mr. Carter. I accept that, and I know you do too, which 
means that we have to try some different things.
    Mr. Neffenger. That is right.
    Mr. Carter. This is a different thing.
    So what I want to know is this specifically: Do you have 
personnel that are dedicated to this program, that are pushing 
this program?
    Mr. Neffenger. I do. I have an entire office that handles 
the Screening Partnership Program. I have a new person that has 
come in, started just before I started, and has dramatically 
changed--I believe dramatically improved the program, made it 
more apparent, more accessible, more understandable, 
streamlined, and has--and we respond to anybody who wants to 
know about it. In fact, I asked them to reach out to Miguel 
Southwell.
    Mr. Carter. I know you respond to it. My hope is that you 
are marketing it as well. I mean, I would hope that you are 
pushing this program. Again, we are looking for any way that we 
can cut lines, any way that we can save money, and still do it 
efficiently and do it effectively.
    Mr. Neffenger. Well, it is a goal that I have as well. 
There are a couple things. I mentioned in my opening statement 
that we are also looking at what I think are some very dramatic 
improvements we can make to the entire development of the 
screening environment.
    It has really about how you process people through more 
efficiently while still doing an effective job at security. I 
think there are some things that we can do that we are doing 
right now that will make a huge difference in that, whether or 
not you are private or public.
    Mr. Carter. But including pushing this program, which is 
what I am appealing to you, okay?
    Mr. Neffenger. Okay.
    Mr. Carter. Thank you, Mr. Chair.
    Mr. Katko. Thank you, Mr. Carter.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Keating, for 5 minutes of questions.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Administrator.
    I just want to focus on something that I realized is an 
area of resources that are difficult. But you already addressed 
and are working on the issue of access to data by TSA where 
there were 73 people that were on the TIDE database on radical 
sites.
    I want to take that a step further. We had a hearing in 
Boston just this week, and Mr. Mellon was there representing 
TSA. But on the surface-area issues, which I understand usually 
it is the local security forces, the local transport forces 
that deal with that, not TSA employees directly, and they work 
with FEMA in that regard, but TSA is still responsible for the 
safety and security in those areas.
    One of the things that is a concern on the surface area 
transport area, if you look at that issue, the 73 people that 
were identified and TSA didn't have the data, access to the 
data network with them, it is even more difficult when you are 
dealing with local area transport security forces because you 
are a step removed.
    For rail and buses and the people that work around those 
areas, I have great concerns about the screening of those 
employees. I will take it even a step deeper than that. There 
is a GAO report, a September 2013 report, where they were 
looking at the contracting out, the private contracting out of 
services. In that GAO report they were talking about those 
private contractors were doing less training, and I suspect 
less screening. I really think that is an area of great 
susceptibility.
    Now, I know you are stretched and I know the way you 
currently operate you are relying on those local transit 
authorities to do that kind of work. But is there something we 
can do in terms of oversight? Because I look at 
vulnerabilities, and on surface area transport security it is 
so accessible and it is mass transit. But one of the areas we 
do have control over is screening those workers there that have 
all this access and access that could be dangerous in the wrong 
hands.
    So could you just comment or at least agree if that is an 
area of concern, and if it is, maybe look at that area, even 
with diminished resources, even with the difficulty? I think 
that is a real area of concern.
    Mr. Neffenger. Well, I would concur with you. Any time you 
have a population that you need to trust, you need to have some 
means of verifying that trust. We directly concern ourselves 
with that for people who hold transportation workers cards, 
other credentials associated with those, as well as people in 
the aviation industry and access. We rely heavily, as you 
noted, upon State and local law enforcement to do some of that 
background vetting across the surface modes.
    What I will tell you is that it is of concern to us, and 
what I owe you is a fuller explanation of how we intend to 
continue to approach that and some of the things that we could 
potentially do in the future.
    Mr. Keating. Great. I think it is just not an area of 
concern for safety in terms of terrorist activity. I think it 
is a real area in terms of basic safety. Because that same GAO 
report talked about the lack of safety training and it talked 
about the buses and the equipment, the assets they use not 
being as safe either. So is there a way for us to do a little 
more oversight on that?
    Mr. Neffenger. As you know, DOT covers a lot of that with 
some of their oversight programs, but I think it implies a 
stronger linkage perhaps between what is being done in the 
safety world and what needs to be done in the security world as 
well.
    Mr. Keating. If that is an area that you could provide the 
committee some more information on, we would be grateful for 
that.
    Mr. Neffenger. Yes, sir, I will.
    Mr. Keating. Thank you for your hands-on approach thus far 
trying to dig in and deal with these very difficult issues.
    Mr. Katko. Thank you, sir.
    Thank you, Mr. Keating.
    I just wanted to follow up with one area that hasn't been 
covered, which I anticipated that it was going to be covered, 
and that is the behavior detection officers. Could you tell me, 
what is the budget for those this year?
    Mr. Neffenger. The BDO budget this year, I know that we 
have come down by 15 percent from fiscal year 2015 numbers. So 
we have reduced it by $33.6 million. Off the top of my head, I 
don't have the exact number for that. I know it is a reduction 
of $33.6 million over the fiscal year 2015 number.
    What I would like to do is talk to you about how I view 
that program and what I think that program is and can become 
going into the future.
    Mr. Katko. Yeah. I guess I am looking at it from the--now 
that Managed Inclusion is kind of going by the wayside, which 
it should be, I am wondering if, you know, some of those 
resources might be better allocated towards the high-density 
airports and trying to get more staffing at those airports.
    Mr. Neffenger. Well, we are doing that. That is one of the 
reasons for bringing the numbers down, is to reallocate 
staffing to other front-line screening.
    But if you think about the screening environment in its 
total sense, there are a lot of things that are going on from 
the time you enter to the checkpoint queue to the time you 
exit. There is a successive attention to detail as you come 
through and kind-of an increasing attention to detail as you 
are moving through the environment.
    There is sort of the general overview of the environment. 
You need somebody paying attention, some group of people paying 
attention to the general tenor of the environment. So how are 
people acting? What does it look like? You need an awareness of 
the activities in the environment.
    Then as you get closer and closer to the actual checkpoint 
or to the X-ray machine and the walk-through metal detector, 
the AIT machine, you want some very detailed attention paid to 
each individual coming through.
    So that is the whole idea behind how you layer in things 
like behavior detection.
    I don't like separating out that capability and isolating 
it. I spent a fair amount of time in Israel earlier this--
actually, at the end of last year, because I wanted to look at 
the way they do behavior detection. So they embed that 
throughout their whole system. There is greater or lesser use 
of the behavior detection techniques, depending upon what your 
role is in the system. But everybody kind-of has an awareness 
of it.
    So we have begun to do that, to actually train behavior 
awareness to all of the people who work in the checkpoint 
environment, because if you look at law enforcement agencies 
around the world, they all use some form of behavior awareness 
testing and behavior awareness detection.
    In fact, the program that we have was built with input from 
law enforcement agencies like the New York Police Department, 
the FBI, LAPD, the Israelis, and the like. In fact, the 
Israelis have come back and given us some advice.
    We have also tried to validate that, in fact recently sent 
a report to Congress, which I think does validate the science 
behind the behavioral indicators. It is not a 100 percent 
program, not intended to be, it is an indicator, and you look 
for certain types of behaviors.
    But you have got to get the numbers right. What we have 
done is we brought them in closer to--we have integrated them 
more effectively into the checkpoint environment. That is why I 
think you can bring the numbers down. I don't need them 
wandering around the airport. I need them paying attention to 
an environment in which you are trying to determine whether 
anybody at the last minute is trying to get past you and get 
something into the aircraft.
    So I think we are on a good trajectory with behavior 
detection, I think there is some more adjustment that needs to 
be done. Again, what I asked was let's hold--we came down by 15 
percent in the numbers in the fiscal year 2016 budget. I just 
want to hold steady as we look at the modifications that we are 
making to that program, because I think that it all plays into 
the way you staff more efficiently the checkpoint environment.
    I like having people paying attention to the broader crowd, 
and they make thousands of referrals a year that have resulted 
in hundreds of arrests, mostly criminal arrests, but the 
behavioral indicators for criminal activity are the same 
behavioral indicators for anybody trying to do something bad.
    So I am comfortable that it has a sound basis. What I don't 
know is whether we have got the numbers right yet. As I 
mentioned to Mr. Thompson, I am very concerned about our 
ability to address what I know will be a very challenging 
summer travel season.
    Mr. Katko. A quick question for you. Are they being 
implemented outside--let me ask a better question. So, I 
understand it, the BDOs are being implemented just at the 
checkpoint, not throughout the airport, just at the checkpoint?
    Mr. Neffenger. There is still some use around--I mean, we 
still--they serve on VIPR teams, so they are moving around. 
Again, if you think about it, you are moving around, 
particularly the VIPR teams that are doing the random 
inspection of badge personnel. As I think I mentioned before, 
we have increased that by almost 5-fold, the number of 
inspections that we are doing within the airport environment. 
So we have some BDOs on that team, because they are watching 
behaviors in and around the aircraft and the baggage handling 
areas and the like. So it is not solely there, but we have 
focused on the checkpoint with our BDOs for current.
    Mr. Katko. All right. Thank you.
    Miss Rice has no further questions, but Mr. Keating may.
    So, Mr. Keating, please.
    Mr. Keating. Thank you, Mr. Chairman.
    Just a couple of quick questions. No. 1 is the 
responsibility for staffing the exit lanes, how is that 
reflected in your 2017 budget request? No. 2, and last, we have 
talked about perimeter security, and you are going to dig into 
that issue, you said. Is there any progress thus far to 
communicate to this committee on that?
    Mr. Katko. I will note for the record that Mr. Keating's 
record is now still intact to mention perimeter security at 
every hearing.
    Mr. Keating. Thank you, Mr. Chairman. I am glad you are 
keeping track, and I hope you are not alone in keeping track of 
this issue.
    Mr. Katko. That is right.
    Mr. Keating. Because it dates back to the 9/11 Commission 
Report.
    If we could on perimeter security, see what actions you 
might have taken so far, and also what plans you have going 
forward in that respect. Those are the two points I wanted to 
make.
    Mr. Neffenger. On exit lanes, we are staffing to the lanes 
that we are required by law to staff to. As you know, Congress 
passed a law that said you must continue to maintain exit lane 
staffing. So I don't have the exact number, but this budget 
reflects the requirement to continue to staff those exit lanes.
    We are also working with various airports to look at exit 
lane technology. Technological solutions to exit lane 
management takes the human out of the equation, one-way doors 
and that sort of thing.
    Mr. Keating. We saw some of that in a field hearing in 
Syracuse.
    Mr. Neffenger. There is some promising stuff out there. Not 
all of it is cheap, but there are some good solutions out 
there, and we are looking at trying to get those approved and 
on a list that could be used.
    With respect to perimeter security, there is actually a lot 
going on right now. I hope you will be pleased with what we are 
doing. I pay attention to it, not just because you ask me 
questions about, but because it is a real concern.
    As you know, last year, this was before I came on board, 
but in the wake of the incident in Atlanta and some follow-on, 
the Secretary had asked the Aviation Security Advisory 
Committee to take a look at specifically insider threat and 
perimeter security. They came out with, among other things, 
some recommendations with respect to that.
    TSA, again, had put out a requirement to do some work with 
respect to reducing access points and the like. Personally, I 
wasn't comfortable with both the nature of that request as well 
as the response that we got. I mean, there was some good work 
done, it is not to suggest that people didn't take it 
seriously, but it wasn't really well-defined.
    So over the past 2 months, and then ending at the end of 
this month, we are looking airport by airport across all the 
Federal airports in the country. I put out a very detailed 
vulnerability assessment requirement.
    So our FSDs, working with the airport directors and then 
the airlines and employers in there, their requirement, among 
other things, is to identify every single access point, airport 
by airport, the purpose of the access point, the people who use 
that access point, and what the nature of the access is, what 
does it allow to have happen, in addition to identifying the 
number of employees that have badged access, who the employers 
for those employees are, and what the nature of their badged 
access is.
    Because I wanted to get a better understanding of what 
access means. I have heard people tell me: Well, you can't get 
below a certain number. But yet, that number will be 
significantly higher than a similar-sized airport that says: I 
can get to a lower number.
    So I didn't, to be honest, I didn't feel like I had enough 
information to actually answer your question effectively, or to 
answer this committee's question.
    Those reports are starting to come in now. We should have 
all of those by the end of this month. We will have to evaluate 
them. My goal is to, first of all, get a better understanding, 
airport by airport, of what it looks like, what are we talking 
about in terms of access points----
    Mr. Keating. Are you just doing this within the context of 
the vulnerability assessment request? Because that has dropped 
from 17 percent of airports to 13 percent, down to, like, 3 
percent of airports.
    Mr. Neffenger. No, no, this is the entire system.
    Mr. Keating. Good. Thank you.
    Mr. Neffenger. This is all 450-plus Federalized airports. 
So this is every single airport that we have responsibility 
for.
    Mr. Keating. Thank you.
    Mr. Neffenger. So that is going to take some time to 
compile that, but my intent is to provide that report. It will 
probably be a Classified report, but we will provide it to the 
committee, and then we can have a discussion about now what do 
we do and what does it mean, in terms of how you manage that 
going forward.
    I suspect we will learn some good things and we will learn 
some things that are disturbing in that. But it will give us a 
much clearer picture. I just didn't think I had a clear 
picture, and the only way to get it is to actually go out and 
draw the picture airport by airport.
    Mr. Keating. That is great. You said you would do that, and 
you are doing it. I appreciate that.
    I yield back.
    Mr. Katko. Thank you, Mr. Keating.
    Do you have any more questions? You all set?
    I would like to thank Administrator Neffenger for his 
thoughtful testimony, very helpful.
    Members of the committee may have some additional questions 
for the witness, and we will ask you to respond to those in 
writing. The hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Honorable John Katko for Peter V. Neffenger
    Question 1a. As you may know, TSA--as part of DHS--has special 
acquisition authority to use ```other transactions'' agreements, or 
OTAs. It is my understanding that these types of agreements are 
generally used for research and development purposes--they do not 
substitute for open and competitive contracts, for example.
    Can you describe how TSA has used these OTAs?
    Also, can you tell me if your on-going acquisition and procurement 
review is, or anticipates, reviewing how OTAs are used, and how they 
should be used, by TSA?
    Answer. The Department of Homeland Security's other transaction 
authority (OTA) is delegated by Congress and primarily covers research 
and development and prototype activities. However, the Aviation and 
Transportation Security Act (ATSA, Pub. L. 107-71, November 19, 2001) 
provides the Transportation Security Administration (TSA) with a 
different authority for use of OTAs where a conventional competitive 
procurement would not be able to achieve the functions of the program. 
TSA primarily utilizes OTAs for the following programs/projects:
  <bullet> Inline Checked Baggage Inspection Systems (CBIS).--
        Currently, TSA's primary use of OTAs is for the design and 
        construction of inline CBIS. The OTA establishes a funding cost 
        share percentage with the airport authority, defines the roles 
        and responsibilities of TSA and the airport, and serves as the 
        contract vehicle to fund the airport's allowable project costs. 
        The airport uses established contracting processes to award 
        contractors to perform necessary structural, electrical, and 
        mechanical work necessary to support the installation of the 
        checked baggage screening equipment.
  <bullet> Advanced Surveillance Program.--TSA utilizes OTAs to support 
        transportation authorities' expansion of closed circuit 
        television surveillance systems. These systems enable the 
        ability to observe and detect people and property moving 
        through the security screening process and facilities.
  <bullet> Law Enforcement.--TSA also utilizes OTAs to fund the costs 
        of local law enforcement officers who provide security services 
        to TSA.
  <bullet> Canine program.--TSA utilizes OTAs to fund local and State 
        participants who provide law enforcement officers to serve as 
        dog handlers at airports, mass transit systems, maritime, and 
        other facilities.
  <bullet> Parking and Janitorial Services.--TSA utilizes OTAs to fund 
        airport janitorial services and airport parking for 
        transportation security officers. These services are typically 
        contracted directly by the airport.
    TSA has an existing and active policy to conduct quarterly sample 
reviews of prior quarter contract actions to include OTAs.
    Question 2a. A number of concerning threat streams and attacks, 
such as the MetroJet incident, demonstrate that the international-
inbound risk to aviation remains concerning. The budget does not appear 
to show any major investments or initiatives in stemming the overseas 
threat, and ascertaining the resources devoted to TSA's Office of 
Global Strategies has been difficult.
    What is TSA doing to ensure that international inbound aviation is 
secure from terror attacks?
    Answer. The threat to international civil aviation is evolving; 
therefore, it is more important than ever that the Transportation 
Security Administration (TSA) focus on the fundamentals of aviation 
security internationally. To mitigate this threat, TSA assesses 
security at international airports, analyzes the aviation security 
attack scenarios posing the greatest risk, and develops mitigation 
plans to address the highest-priority areas. This mitigation depends on 
intelligence information, embracing innovation in technology, processes 
and training; and sharing information and best practices with our 
international partners.
    TSA is integrated into the intelligence community to ensure the 
availability of the latest threat information, particularly with regard 
to overseas threats. Threat information is briefed to the TSA 
administrator and senior staff daily, and it is used to inform TSA's 
policies with regard to international engagement, inspections, 
assessments, and mitigation efforts.
    TSA is required by law to assess foreign airports and inspect 
foreign air carriers that fly into the United States, along with U.S. 
aircraft operators. TSA conducts these assessments at approximately 280 
Last Point of Departure airports, and in fiscal year 2015, TSA 
conducted 289 air carrier inspection visits and 146 foreign airport 
assessments. Additionally, TSA has the authority to issue Security 
Directives (SDs) and Emergency Amendments (EAs) to foreign and U.S. air 
carriers operating from those airports to add additional security 
requirements that further mitigate threat. Through SDs and EAs, TSA is 
able to enhance the overall security posture by requiring airports and/
or air carriers to elevate the level of security to address both 
specific threats and general areas of concern in the regions of the 
world with terrorist activity.
    TSA's Secure Flight program conducts passenger watch list-matching 
for more than 270 U.S. and foreign air carriers with flights into, out 
of, within, and over the United States, as well as covered U.S. flights 
between 2 international points, to identify individuals who may pose a 
threat to aviation or National security, and designate them for 
enhanced screening or prohibit them from boarding an aircraft, as 
appropriate. All international inbound passengers are vetted through 
Secure Flight. Through a collaborative partnership with CBP, TSA is 
able to implement risk-based, intelligence-driven, scenario rules in 
the Automated Targeting System-Passenger to identify additional 
international travelers and designate them as requiring enhanced 
screening. These rules are based upon potential terrorist travel 
patterns and current threats.
    In 2015, TSA identified a number of known or suspected terrorists 
who attempted to travel on commercial aircraft, and who represented the 
highest threat to transportation, some of whom were identified as 
potential foreign fighters. In these instances, TSA took action to 
address the threat, which included, as appropriate, denial of boarding 
to prevent overseas travel to participate in foreign fighting or to 
conduct other nefarious activities.
    To address potential insider threats, all foreign air carriers and 
U.S aircraft operators flying to/within/over the United States are 
required to submit their Master Crew Lists to TSA for vetting against 
the watch lists. When directed by TSA, air carriers and aircraft 
operators must remove any crewmember from their Master Crew List.
    Question 2b. In what ways is TSA working with foreign partners, 
such as the European Union?
    Answer. TSA collaborates closely with foreign partners, including 
foreign governments, foreign air carriers, foreign all-cargo air 
carriers, international organizations, as well as foreign airport 
authorities. TSA maintains close relationships internationally through 
our network of Transportation Security Administration Representatives 
(TSARs), International Industry Representatives, and TSA inspectors. 
TSA also coordinates with a robust network of foreign partners through 
bilateral, multi-lateral and industry organizations, such as the 
International Civil Aviation Organization (ICAO), International Air 
Transport Association (IATA), Airports Council International (ACI), 
QUAD, and G7 groups. TSA serves as the lead U.S. Government agency on 
matters of aviation security within ICAO and represents the United 
States on the Aviation Security Panel of Experts (AVSEC Panel) and in 
its various working groups.
    As an example of TSA's close collaboration with foreign partners, 
TSA and the European Union Directorate General for Mobility and 
Transport participate in a bi-annual U.S.--European Union 
Transportation Security Cooperation Group designed to align key 
aviation security policy initiatives, while also ensuring close 
coordination on operational objectives. Amongst other achievements, 
notable successes include mutual recognition of National cargo security 
programs; continued work to align explosive detection standards; and 
the sharing of best practices on the screening of non-metallics.
    Additionally, TSA assists foreign governments in resolving 
outstanding security vulnerabilities identified through TSA's airport 
assessment program by providing assistance in the form of training, 
technical assistance, on-the-spot remediation, and other forms of 
direct engagement.
    Question 3a. The committee understands that, for the first time, 
the front-line workforce has been provided with more detailed 
intelligence information concerning threats to transportation security.
    Do you believe this has helped Transportation Security Officers 
(TSO) understand the importance of being effective and focused in 
detecting threat items?
    Answer. The Transportation Security Administration (TSA) believes 
providing the front-line workforce with more consistent and detailed 
intelligence information concerning threats to transportation security 
enhances the front-line workforce's understanding of the importance of 
being effective and remaining focused in detecting threat items. The 
screening system is composed of three parts: Technology, processes, and 
people. Understanding the threat, appreciating the limitations of the 
technology, and recognizing the importance of procedures enhances the 
overall ability of the workforce to detect threat items. As a result, 
Transportation Security Officers (TSO) receive the intelligence portion 
of the Mission Essentials and Threat Mitigation training on a quarterly 
basis. This training is regularly updated to focus on new tactics, such 
as the way terrorists hid explosive devices in innocuous items to bomb 
the Metrojet flight in Egypt and the Daallo flight in Somalia.
    Question 3b. How does TSA intend to continue providing such 
information to the workforce? Will briefings occur on a regular basis?
    Answer. TSA will continue to update and deliver Mission Essentials 
training on a quarterly basis, while also providing ad-hoc intelligence 
briefings on emergent threat issues. Emergent threat concerns are also 
conveyed to the workforce via the weekly National Shift Brief, a 
communications mechanism used by TSA front-line supervisory staff to 
provide information directly to the front-line workforce at the 
beginning of a shift. In addition, in fiscal year 2017, TSA will 
incorporate a baseline intelligence briefing into the curriculum at 
basic training for all incoming TSOs. The main tenets to be presented 
include the current threat, threat groups, and tactics used by said 
groups.
    Question 4. This committee has previously held hearings on the 
cumbersome and difficult process that companies are having when having 
their technologies tested by TSA. While some of this also lies in the 
hands of the DHS Science and Technology Directorate, how are you 
working to lower the barrier for entry for small business with security 
solutions to today's threats?
    Answer. The Transportation Security Administration (TSA) has met 
its small business goals and continues to seek additional opportunities 
to increase small business participation. TSA is focused on 
diversifying the industrial base and providing small businesses with 
access to environments and integration into screening systems that have 
not been historically available. TSA is pursuing 3 initiatives that 
should increase competition for all businesses:
  <bullet> Third-Party Testing.--TSA has observed challenges with 
        transportation security equipment passing qualification testing 
        and operational testing, resulting in delayed acquisition 
        processes and increased test and evaluation costs. TSA is 
        working to address these challenges by developing a Third-Party 
        Test Program, which is intended to streamline the acquisition 
        process by requiring vendors to provide more mature systems in 
        response to procurement opportunities. Third-Party Testing will 
        identify standardized testing criteria, testing requirements, 
        and standardized test scenario templates for transportation 
        security equipment. TSA anticipates that this will make the 
        testing process more accessible and transparent for all 
        vendors, including small businesses. Small businesses could 
        also become authorized third-party testers.
  <bullet> Open Architecture.--TSA has identified the need to shift to 
        an open architecture for capability development. As part of 
        this open architecture concept, TSA is moving to a ``systems-
        of-systems'' perspective, which integrates technology, data, 
        and processes within and across airports. Establishing an open 
        architecture will result in a higher level of interoperability 
        and allow for the acquisitions, repair, and upgrade of 
        individual components, thereby increasing competition and 
        potentially creating new business opportunities for small 
        business. The fiscal year 2017 President's budget request calls 
        for $5 million for this purpose.
  <bullet> Innovation Lanes.--TSA is pursuing the establishment of 
        innovation lanes at various airports. An innovation lane would 
        be a partnership with manufacturers and industry to demonstrate 
        emerging capabilities in an airport environment. This program 
        would provide an opportunity for businesses, including small 
        firms, to gather data in an operational environment, which will 
        better enable vendors to understand the screening process and 
        also inform the evolution of screening technology.
    Question 5. The homeland is facing new and growing threats from 
ISIL-affiliated extremists and home-grown extremists targeting critical 
infrastructure, such as transportation. However, the committee is 
concerned that TSA does not have an adequate means of proliferating 
threat information to its regulated partners. While the budget request 
does include additional resources for the Transportation Security 
Operations Center, how will those resources be used to better inform 
the traveling public and transportation partners?
    Answer. In the 2017 budget, the Transportation Security Operations 
Center (TSOC) has requested a cost of living increase. This increase, 
and other resources that support the TSOC, enable operations to 
continue.
    The TSOC provides numerous reports--real-time, daily, weekly, and 
monthly--to over 700 recipients. These reports are sent to 
representatives from the Transportation Security Administration's 
Office of Public Affairs and Office of Security Policy and Industry 
Engagement for their pertinent use with regulated partners.
    The TSOC is constantly analyzing security-related events and 
threats to align its reporting with evolving information. In the last 
12 months, TSOC has created new reports, overhauled existing reports, 
and improved reporting efficiency.
    Additionally, in the last 6 months, TSOC evaluated its ability to 
produce timely effective reporting and written communications. This 
evaluation revealed an opportunity to improve in this area by 
recruiting professional writers to add to the TSOC skill sets. Within 
TSOC's approved staffing levels, and once vacancies occurred 4 watch 
officer positions (positions that historically prepared written 
products) were converted to writer/editor positions. These skills add 
to the TSOC professionals a cadre specifically capable of better 
designing, preparing, and transmitting information related to 
transportation security events.
    In addition, other Transportation Security Administration (TSA) 
offices also provide threat information to TSA's regulated partners. 
TSA's Office of Intelligence and Analysis (OIA), has produced 50 
products so far in fiscal year 2016 (22 Unclassified, 28 Classified), 
which we shared through email, web postings, or personal engagements. 
In fiscal year 2016, OIA has already conducted more than 400 unique 
engagements with transportation stakeholders; these numbers include 
more than 100 engagements each with our aviation and mass transit 
partners, more than 90 with freight rail, 37 with highway, 36 with 
pipeline, and 57 cyber threat engagements across all modes. In fiscal 
year 2016 OIA begins an expansion of its Field Intelligence Officer 
(FIOs) program by about 20 percent, from 68 to 81, and is expected to 
be fully implemented in fiscal year 2017. FIOs support Federal Security 
Directors at airports across the United States and routinely interact 
with other airport officials, passenger and cargo airlines, and other 
local transportation stakeholders to provide relevant threat and 
intelligence information. In fiscal year 2017 OIA will continue efforts 
to enhance information sharing through infrastructure enhancements as 
well as targeted information-sharing improvement initiatives.
    Question 6. Approximately 1 year ago, the Aviation Security 
Advisory Committee submitted a much-needed report on mitigating the 
insider threat to aviation security with 28 recommendations. What is 
the status on TSA's action regarding those recommendations and 
addressing the insider threat, which is now more concerning than ever?
    Answer. As of March 23, 2016, 12 of the 28 Aviation Security 
Advisory Council (ASAC) recommendations have been completed. All 
remaining recommendations are being actively addressed and are on 
schedule for completion. Two of the most significant and major projects 
are the ``Rap Back'' program for recurrent criminal history records 
checks, and the establishment of a National database of employees who 
have had airport and/or aircraft operator-issued badges revoked. In 
response to both the Office of Inspector General and the ASAC 
recommendations, the Transportation Security Administration (TSA) has 
been working with the Federal Bureau of Investigation to initiate a 
proof of concept for the Rap Back program that is planned to begin in 
late spring 2016. Once completed, the program will continually assess 
the criminal history of aviation workers, and notify TSA with any 
changes in status. In addition, TSA has established a working group 
with industry partners to explore options to establish a National 
database of aviation workers who have had badges revoked. Areas of 
review will cover policy, operational processes, technical 
modifications, and possible clearinghouse to support the effort. An 
implementation plan is set for completion by June 2016.
    Question 7. The fiscal year 2017 budget request includes plans to 
update and install new in-line baggage screening systems at several 
airports across the country. Is TSA working to further improve these 
systems' technical capabilities and is there a way of making checked 
baggage more risk-based, rather than a one-size-fits-all approach?
    Answer. The Transportation Security Administration (TSA) continues 
to procure, install, and integrate new technologies and capabilities 
into in-line baggage screening systems to meet evolving security 
requirements and enhance the effectiveness and efficiency of screening 
equipment at airports Nation-wide. TSA collaborates with the Department 
of Homeland Security's Science and Technology Directorate and industry 
to pursue enhanced system capabilities, such as expanded threat 
detection capabilities, higher detection rates, lower false alarm 
rates, higher throughput rates, and reduced life-cycle costs. These 
capabilities will result in improved effectiveness and efficiency of 
airport screening operations in the checked baggage environment.
    TSA is evaluating the integration of risk-based security 
capabilities into checked baggage screening systems. Newly-developed 
explosives detection systems possess the capability of storing multiple 
threat detection algorithms and dynamically switching between 
algorithms during live operations. TSA is collaborating with airports 
and industry to determine the applicability and effectiveness of this 
capability.
    Also, in July 2015, TSA published the Planning Guidelines and 
Design Standards (PGDS) for Checked Baggage Inspection Systems Version 
5. TSA collaborated with industry in the development of these 
guidelines, which outline performance and risk-based design 
requirements, lessons learned, and best practices for designing a 
checked baggage inspection system.
    Question 8. Recently, the committee was informed that TSA does not 
plan to share its updated cost estimate information for the Screening 
Partnership Program until June 30, 2016. Unfortunately, this directly 
contradicts the testimony Administrator Neffenger provided our 
committee at the budget hearing on March 2, and the testimony provided 
by Ms. Dorgham at our November 17, 2015 hearing. In response to Rep. 
Rogers asking when updated cost estimates would be available, Ms. 
Dorgham said that they would be provided in their next semi-annual 
report in mid-2016. When asked by Chairman Katko if we would have cost 
estimates within 6 months, Ms. Dorgham said ``that's correct.'' At the 
budget hearing on March 2, when asked by Rep. Carter about providing 
SPP cost estimates to the committee, Administrator Neffenger, replied, 
``To be honest, I think we are with that now.'' Providing the committee 
with accurate cost estimates is essential to our ability to conduct 
proper oversight, and have a clearer understanding of the impact of 
this program. Please detail for the committee why TSA is no longer able 
to honor the commitment it made in its previous testimony.
    Answer. The Transportation Security Administration (TSA) agrees 
that providing the committee with accurate cost estimates is essential. 
As a result, TSA is currently conducting a thorough internal review of 
the cost comparisons to ensure that they conform to the best practices 
of the Government Accountability Office and that Congress receives the 
most accurate information possible.
    In the November 17, 2015, hearing, Ms. Dorgham stated that TSA had 
already begun making changes to the cost methodology and would provide 
the first cost comparisons in TSA's next semi-annual report to 
Congress. Although TSA was not directed to provide a semi-annual report 
with the passage of the Fiscal Year 2016 Department of Homeland 
Security Appropriations Act in December, TSA still remains committed to 
providing its Screening Partnership Program cost comparisons to 
Congress within the same time frame. TSA is on track to provide the 
cost comparison to Congress as planned in June 2016.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
